<html>
<title> - AMERICA WINS WHEN AMERICA COMPETES: BUILDING A HIGH-TECH WORKFORCE</title>
<body><pre>[Senate Hearing 111-1003]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 111-1003
 
   AMERICA WINS WHEN AMERICA COMPETES: BUILDING A HIGH-TECH WORKFORCE

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 6, 2010

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




                  U.S. GOVERNMENT PRINTING OFFICE
67-045                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="bcdbccd3fcdfc9cfc8d4d9d0cc92dfd3d192">[email&#160;protected]</a>  


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            JOHN ENSIGN, Nevada
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 GEORGE S. LeMIEUX, Florida
CLAIRE McCASKILL, Missouri           JOHNNY ISAKSON, Georgia
AMY KLOBUCHAR, Minnesota             DAVID VITTER, Louisiana
TOM UDALL, New Mexico                SAM BROWNBACK, Kansas
MARK WARNER, Virginia                MIKE JOHANNS, Nebraska
MARK BEGICH, Alaska
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                   Bruce H. Andrews, General Counsel
                 Ann Begeman, Republican Staff Director
             Brian M. Hendricks, Republican General Counsel
                  Nick Rossi, Republican Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 6, 2010......................................     1
Statement of Senator Rockefeller.................................     1
    Prepared statement...........................................     3
Statement of Senator Hutchison...................................     4
    Prepared statement...........................................     5
Statement of Senator Begich......................................    38
Statement of Senator Klobuchar...................................    40

                               Witnesses

David Zaslav, President and CEO, Discovery Communications........     7
    Prepared statement...........................................     8
Ms. Susan Naylor, NBCT, PAEMST, Instructional Coach, Wood County 
  Schools, Parkersburg, West Virginia............................    13
    Prepared statement...........................................    15
Dr. S. James Gates, Jr., John S. Toll Professor of Physics and 
  Director, Center for String & Particle Theory, Physics 
  Department, University of Maryland.............................    16
    Prepared statement...........................................    18
Dr. Ioannis Miaoulis, President and Director, Museum of Science, 
  Boston and Founding Director of the National Center for 
  Technological Literacy.........................................    21
    Prepared statement...........................................    23
Tom Luce, Chief Executive Officer, National Math and Science 
  Initiative.....................................................    31
    Prepared statement...........................................    32

                                Appendix

Response to written questions submitted by Hon. Mark Warner to:
    David Zaslav.................................................    51
    Ms. Susan Naylor.............................................    52
Response to written questions submitted to Dr. S. James Gates, 
  Jr. by:
    Hon. Tom Udall...............................................    54
    Hon. Mark Warner.............................................    55
Response to written questions submitted to Dr. Ioannis Miaoulis 
  by:
    Hon. Tom Udall...............................................    56
    Hon. Mark Warner.............................................    57


   AMERICA WINS WHEN AMERICA COMPETES: BUILDING A HIGH-TECH WORKFORCE

                              ----------                              


                         THURSDAY, MAY 6, 2010

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:29 a.m. in 
room SR-253, Russell Senate Office Building, Hon. John D. 
Rockefeller IV, Chairman of the Committee, presiding.

       OPENING STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    The Chairman. Good morning. The hearing will come to order.
    Earlier this year, as one Susan Naylor at the table knows, 
in Parkersburg, West Virginia, I spent one of the most 
wonderful 3 hours that I've ever spent. It was on a Sunday 
afternoon, I think, or Saturday afternoon.
    Ms. Naylor. It was on a----
    The Chairman. As I said, it was on a snow day and it wasn't 
on Saturday or Sunday.
    [Laughter.]
    The Chairman. And anyway, it was--you know, you seek these 
things, when you're in an office like mine. You never have the 
chance to sort of sit down and talk with people who are doing 
what you're worried about and what you care about.
    And so, I went over to Parkersburg, and they had teachers 
there, including Susan Naylor, who teach math and science. But, 
in the STEM concept, that's 50 percent. And we spent 3 hours 
talking about, you know, what--how do you get to a child? How 
do you get to a youngster on any of these subjects--
particularly, math and science? They're resistant to them. 
They're afraid of them. The word ``science'' is a scary name to 
some. And we just had this fascinating talk.
    One of the teachers had been a coal miner, and she brought 
quite a disciplined aspect to it. But, it was just an 
extraordinary experience in learning about how science and math 
teachers deal with students and how they get them to pay 
attention and to learn and to feel very good about that.
    Anyway, so we had that. We talked for hours. And it really 
gave me tremendous hope, that experience. Not just because I 
know those students are getting a great education from terrific 
teachers, but I also know that they're becoming, potentially, a 
huge investment in our future.
    When the America COMPETES Act became law in 2007, we were 
making a commitment to the science, technology, engineering, 
and mathematics disciplines, i.e., STEM. America's place as a 
global leader was apparently unhappy, in all of those areas. 
The Act established several new education programs at the 
National Science Foundation, the Department of Energy, 
Department of Education, and it boosted funding for something 
which I cared about a lot, a math-based program called the 
Robert Noyce Teacher Scholarship.
    And I worked with Congressman Sherry Boehlert--who's not 
even here anymore in the House; he's a wonderful, absolutely 
wonderful person--on education, science and technology, back in 
2002, to get this program enacted and provide scholarships for 
science, math, and engineering students to become K-through-12 
math and science teachers.
    Since it was signed into law, this program has supported--
and I love this--the funding for about 7,700 teachers of those 
subjects, who will reach students in some of the highest-needs 
school districts across the country.
    Programs like these are really long-term investments. They 
don't attract a lot of public attention, but they affect the 
way the public's going to be, 10, 15, 20, 30 years from now. 
They pay incredible dividends. A world-class STEM workforce is 
absolutely fundamental to us, in this century and the ones in 
front of us, from developing clean sources of energy that 
reduce our dependence on foreign oil, to discovering cures for 
diseases.
    Projections from the Bureau of Labor Statistics indicate 
that over 80 percent of the fastest-growing occupations depend 
on knowledge of mathematics and science. The figure I read was 
80 percent. That's huge. Does one learn a lesson from that, or 
does one just simply ingest that and go about the business of 
the day? I ingest it. I think we all do here.
    But, the National Science Board reported this year that, 
although the United States continues to lead the world in 
science and engineering, other countries are closing the gap by 
increasing their own investments. And that they are doing for 
sure. And our position in the world in some of these areas is 
troubling.
    With America COMPETES, we planted the seeds of something 
very powerful. But, we have to nurture the investment if we 
want to reap the results and the benefits. The authorizations 
in that legislation expire this year--probably one reason for 
this hearing, wouldn't you think?
    And as we look toward reauthorization, we need to evaluate 
our progress. In March, the Committee heard from the heads of 
several government agencies who echoed the long-term value of 
these investments in math, science, engineering, and 
technology.
    With today's hearing, I'm very excited to hear from the 
incredible people who are actually making good on STEM's great 
promise. I thank you all. Susan Naylor, who I promise not to 
talk about too much, here from Wood County, West Virginia, was 
among the teachers I spoke with that day. She works every day 
in the trenches. And she won a national award for her teaching. 
Also, Dr. Jim Gates, a Physics Professor at the University of 
Maryland who has his own STEM story and now inspires a new 
generation of scientists.
    These are practitioners. They're doctors, in a sense. 
They're teachers and doctors. I mean, it's the same thing, 
you're trying to get people to care about taking care of 
themselves, learning, enlarging their futures. And we have a 
lot to learn from these folks at the witness table about what 
works on the ground and what does not.
    I also want to welcome our other very impressive witnesses, 
and thank them for sharing their experiences today. Number one, 
David Zaslav, President of Discovery Communications. I mean, 
that's all you have to say. That's one of the television 
stations I still do watch. And Ioannis Miaoulis, who is 
President and Director of the Museum of Science. And it says 
here, ``Science Boston,'' but I think it should be ``Science in 
Boston.''
    Dr. Miaoulis. It is ``in Boston.''
    The Chairman. Yes, thank you. And also Founding Director of 
the National Center for Technological Literacy. And Tom Luce, 
CEO of the National Math and Science Initiative and former 
Assistant Secretary of Education for Planning, Evaluation, and 
Policy.
    I hope all of you will speak about the importance of 
integrating our efforts; in other words, we must continue to 
support STEM disciplines at school--elementary, secondary, and 
beyond--but, we also absolutely have to be sure that our 
students are getting the same support at home, which is a much 
more complicated subject, and from the media, which is an even 
more complicated subject.
    So, this is incredibly important. I'm really proud of what 
you do--an investment in our community and our country's 
future. That's what we all want to do, in one way or another.
    [The prepared statement of Senator Rockefeller follows:]

          Prepared Statement of Hon. John D. Rockefeller IV, 
                    U.S. Senator from West Virginia

    Earlier this year, in Parkersburg, West Virginia, I met with a 
group of science and math teachers. We talked for hours about the work 
they do every day to inspire their students. They told me why they got 
into their fields and why they keep at it. We also discussed what it 
takes to push that button in each student, to give him or her the 
skills to thrive for a lifetime. It gave me tremendous hope. Not just 
because I know those students are getting a great education, but also 
because we're making a powerful investment in our Nation's future.
    When the America COMPETES Act became law in 2007, we were making a 
commitment to STEM, the science, technology, engineering, and 
mathematics disciplines. America's place as a global leader in those 
areas was at risk and we could not afford to fall behind. The Act 
established several new education programs at the National Science 
Foundation, and Departments of Energy and Education, and it boosted 
funding for existing programs such as the Robert Noyce Teacher 
Scholarship.
    I worked with Congressman Sherry Boehlert back in 2002 to get this 
program enacted and provide scholarships for science, math and 
engineering students to become K-12 math and science teachers. Since it 
was signed into law, this program has supported the funding for about 
7,700 teachers who will reach students in some of the highest-need 
school districts across the country. Programs like these are long-term 
investments--and they pay incredible dividends. A world-class STEM 
workforce is fundamental to addressing the challenges of the 21st 
century--from developing clean sources of energy that reduce our 
dependence on foreign oil to discovering cures for diseases.
    Projections from the Bureau of Labor Statistics indicate that over 
80 percent of the fastest-growing occupations depend on knowledge of 
mathematics and science. The National Science Board reported this year 
that although the Unites States continues to lead the world in science 
and engineering--other countries are closing the gap by increasing 
their own investments in research, infrastructure, and education.
    With America COMPETES we planted the seeds of something very 
powerful, but we have to nurture the investment if we want to reap its 
benefits. The authorizations in that legislation expire this year and, 
as we look toward reauthorization, we need to evaluate our progress.
    In March, the Committee heard from the heads of several government 
agencies who echoed the long-term value of these investments. With 
today's hearing, I am excited to hear from the incredible people who 
are actually making good on STEM's great promise.
    Susan Naylor here today from Wood County, West Virginia, was among 
those teachers I spoke with in Parkersburg. She works every day where 
the rubber meets the road, and I hope she will speak about the 
challenges of implementation. So will Dr. Jim Gates, a physics 
professor at the University of Maryland, who has his own STEM story and 
now inspires a new generation of scientists. These are practitioners 
and we have a lot to learn from them about what works and what does 
not.
    I also want to welcome our other impressive witnesses and thank 
them for sharing their experiences today. David Zaslav, President and 
CEO of Discovery Communications; Dr. Ioannis Miaoulis President and 
Director of the Museum of Science Boston and Founding Director of the 
National Center for Technological Literacy; and Tom Luce, CEO of the 
National Math and Science Initiative and former Assistant Secretary of 
Education for Planning, Evaluation and Policy Development.
    We have to work together to support STEM disciplines at school of 
course, but we also must make sure our students are getting the same 
support at home, in our communities, and from the media. This is 
incredibly important--it's an investment in our community and our 
country's future. And if we get it right, the rewards will be enormous.

    And I now call upon my distinguished Co-Chair, Kay Bailey 
Hutchison.

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Thank you, Mr. Chairman.
    I'm very pleased to be here. I really appreciate your 
calling this hearing, because the reauthorization of the 
America COMPETES Act is very important for our country. And I'm 
very appreciative that you, Mr. Chairman, prioritize it, as I 
certainly do.
    I do want to thank all the witnesses, because each of you 
are contributing to our goal of increasing the number of our 
students who go into the STEM courses and are prepared for the 
STEM courses.
    I especially appreciate that my request was answered, that 
Tom Luce would be one of our witnesses. He is, as you said, the 
CEO of the National Math and Science Initiative, and former 
Assistant Secretary of Education. But, he is doing what we're 
talking about, and also fostering an innovative program, that 
was started at the University of Texas, called ``UTeach.''
    Science, technology, engineering, and math, or STEM, 
education plays an essential role in fostering the further 
development of our innovation-based economy. But, several 
recent studies caution that a danger exists that Americans may 
not know enough about STEM fields to significantly contribute 
to, or benefit from, the knowledge-based society that is taking 
place.
    In my home State of Texas, 41 percent of the high school 
graduates are ready for college-level math; 24 percent are 
ready for college-level science; furthermore, only 2 percent of 
all U.S. 9th-grade boys, and 1 percent of girls, will go on to 
attain an undergraduate science or engineering degree. In 
contrast to these troubling numbers, Mr. Chairman, 42 percent 
of all college undergraduates in China earn science or 
engineering degrees.
    As nations like China and India invest strategically in 
STEM education for their citizens, the United States must 
assess whether its education system can meet the demands of the 
21st century. If we fail to address these challenges, we risk 
compromising the development of the next generation of American 
scientists, engineers, and mathematicians.
    I believe that a solid foundation for a scientifically 
literate workforce begins with developing outstanding K-12 
teachers in science and mathematics. Unfortunately, today there 
is a shortage of highly qualified K-12 teachers that many of 
our Nation's school districts are hiring.
    Statistics also demonstrate that a large percentage of 
middle and high school mathematics and science teachers are 
teaching outside their own primary fields of study. While a 
United States high school student has a 70-percent likelihood 
of being taught English by a teacher with a degree in English, 
that same high school student has only a 40-percent chance of 
studying chemistry with a teacher who has majored in chemistry. 
These statistics are not acceptable.
    I want to ask Mr. Luce to expand on this, but I am pleased 
that Texas is leading the way, with the UTeach program. 
Beginning in 1997, this program was started, and has been 
mentioned in several studies, including Rising Above the 
Gathering Storm, which was the impetus for the America COMPETES 
Act.
    I plan to introduce legislation soon that will create a 
grant program to allow colleges and universities to adopt the 
UTeach Program to recruit and prepare students who major in 
science, technology, engineering, or math to become certified 
as elementary and secondary schoolteachers through electives. 
That's what the UTeach Program is. Mr. Luce's organization does 
this through private funding, and has done a phenomenal job. I 
just want to spread it out throughout our country.
    I will ask Mr. Luce some of the questions about how many of 
the teachers who get this degree, an engineering or science 
degree with a teacher-elective certification, how many of them 
stay in teaching. It's a great statistic. And I think that it 
is, according to the Rising Above the Gathering Storm, the best 
incentive that we can give our young people in secondary 
school, offering the opportunity to take these courses from a 
teacher that majored in them and loves the course and will 
imbue that enthusiasm to the student.
    So, Mr. Chairman, I'm excited about reauthorization, and I 
look forward to working with you for a wonderful bill that will 
be bipartisan, just like the first one, America COMPETES, was.
    Thank you.
    [The prepared statement of Senator Hutchison follows:]

  Prepared Statement of Hon. Kay Bailey Hutchison, U.S. Senator from 
                                 Texas

     Mr. Chairman, thank you for holding this hearing today. I want to 
welcome our witnesses, each of whom plays an important role in 
encouraging young minds to pursue coursework and experiences that will 
position them to be the best minds available to work on science, 
engineering, math, and technology in the future.
    Science and technology are at the core of America's ability to 
compete in an increasingly globalized economy and to solving many of 
the challenges we face as a nation in energy independence, 
biotechnology, and healthcare.
    Science, Technology, Engineering, and Mathematics education, or 
STEM education, plays an essential role in fostering further 
development of the 21st Century's innovation-based economy. Several 
recent studies caution, however, that a danger exists that Americans 
may not know enough about the STEM fields to significantly contribute 
to, or benefit fully from, the knowledge-based society that is taking 
shape around us.
    In my home state of Texas, only 41 percent of the high school 
graduates are ready for college-level math (algebra), and only 24 
percent are ready for college-level science (biology). Furthermore, 
only 2 percent of all U.S. 9th-grade boys and 1 percent of girls will 
go on to attain an undergraduate science or engineering degree.
    In contrast to these troubling numbers Mr. Chairman, 42 percent of 
all college undergraduates in China earn science or engineering 
degrees.
    As nations like China and India invest strategically in STEM 
education for their citizens, the United States must assess whether its 
education system can meet the demands of the 21st Century. If we fail 
to address these challenges we risk compromising the development of the 
next generation of American scientists, technologists, engineers, and 
mathematicians, making it more difficult to address persistent national 
problems.
    I believe that a solid foundation for a scientifically literate 
workforce begins with developing outstanding K-12 teachers in science 
and mathematics. Unfortunately, today there is such a shortage of 
highly qualified K-12 teachers that many of the Nation's school 
districts have hired uncertified or under qualified teachers.
    Statistics also demonstrate that a large percentage of middle and 
high school mathematics and science teachers are teaching outside their 
own primary fields of study.
    While a United States high school student has a 70 percent 
likelihood of being taught English by a teacher with a degree in 
English, that high school student has only about a 40 percent chance of 
studying chemistry with a teacher who was a chemistry major.
    Those statistics are unacceptable and they are also unnecessary. We 
can and must do better and I believe we should use this reauthorization 
process to encourage programs that increase the number of teachers in 
STEM fields certified to teach in those areas.
    I am pleased that Texas has been a leader in this area and has a 
model program that combats this problem by effectively combining 
undergraduate degrees in the STEM fields with teacher certification.
    Beginning in 1997, the UTeach program has become the national 
benchmark for teaching excellence and has been mentioned in several 
high profile reports including the National Academies' ``Rising above 
the Gathering Storm'' report.
    I plan to introduce legislation soon that will create a grant 
program to allow colleges and universities to adopt the UTeach program 
to recruit and prepare students who major in science, technology, 
engineering, or mathematics to become certified as elementary and 
secondary school teachers. I hope as we move forward this can be 
included in the America COMPETES Act reauthorization.
    In addition to increasing the number of certified teachers in STEM 
fields, I believe that improving the K-12 curricula in the STEM fields 
is essential because domestic and world economies increasingly depend 
on these areas of knowledge. Unfortunately, primary and secondary 
schools frequently fail to produce enough students with the interest, 
motivation, knowledge, and skills they will need to succeed in the 21st 
Century's global economy.
    I think we can make America even more competitive and innovative 
than it is today. We can and we must.
    Thank you again, Mr. Chairman. I look forward to hearing from our 
witnesses.

    The Chairman. Thank you very much, Senator Hutchison.
    Let me--David Zaslav, can we start with you?
    And incidentally, in the Senate, no Senator ever, ever 
talks for more than 5 minutes.
    [Laughter.]
    The Chairman. And therefore, we kind of apply the same 
rules to you.

    STATEMENT OF DAVID ZASLAV, PRESIDENT AND CEO, DISCOVERY 
                         COMMUNICATIONS

    Mr. Zaslav. OK. Thank you, Chairman Rockefeller, Ranking 
Member Hutchison, and distinguished members of the Committee.
    My name is David Zaslav, President and CEO of Discover 
Communications, the world's number-one nonfiction media 
company.
    When John Hendricks first created our company, he named it 
the ``Cable Education Network,'' with a mission to empower 
people to explore their world and satisfy their curiosity. Of 
course, the name later changed to ``Discovery.'' But, education 
has remained in our DNA ever since.
    Today, Discovery has 13 U.S. networks and more than 120 
networks around the world, and our Discovery Education division 
provides digital content to more than 1 million U.S. teachers 
and 35 million students, all aligned to State education 
standards, making Discovery Education the leading provider of 
digital media to America's classrooms.
    I'm honored to be here today to talk about how Discovery 
can join with you, the Obama Administration, and private 
industry to help inspire our children to love science.
    As you know, Mr. Chairman, America faces a serious 
challenge. In an age where innovation and knowledge are the 
drivers of economic growth, too few of our kids are passionate 
about STEM. If we don't ignite that passion, this country will 
simply not be able to meet its most pressing challenges.
    Mr. Chairman, just a little over a year ago, you visited 
the Mount View School, in Welch, West Virginia, to celebrate a 
phenomenal teacher, Ed Evans. Mr. Evans was named America's top 
science teacher in our Discovery Education 3M Young Scientist 
Challenge, which, for 12 years, has been encouraging the 
exploration of science among America's middle school students. 
You got to be a student in his class that day, even joining the 
kids to dissect owl pellets. You saw firsthand how enthralled 
the kids were with the lesson.
    What if all science classes were as engaged as Mr. Evans' 
class? What if every computer, iPod, and TV was transformed 
into an exciting new place to learn about science? Could we 
unleash the next great generation of scientific advancement? At 
Discovery, we believe we can and we believe we must. So, we 
commend Congress for working to reauthorize the 2007 America 
COMPETES Act. We're also excited to be a part of President 
Obama's Educate to Innovate initiative.
    Today's students live in the digital world. They e-mail, 
text, tweet, and chat. They carry video clips in their hands. 
It's a whole new world. At Discovery, we are focused on using 
digital tools to make science and math curricula more engaging.
    Imagine a typical science class studying volcanoes. Through 
Discovery Education Science, our web-based science curriculum 
service, an educator can download a 3-minute video clip and 
accompanying simulations that take her students beyond the four 
walls of their classroom.
    We're also partnering with the Siemens Foundation on the 
Siemens STEM Academy, a unique national initiative offering 
free hands-on and web-based STEM professional-development 
resources. These are just two examples of our classroom-based 
initiatives.
    But, what about the hours when kids aren't in school? The 
truth is that when they're not in class, and sometimes even 
when they are, kids spend many of their waking hours engaging 
in media. That's why Discovery launched the ``Be the Future 
Campaign,'' a multimedia, multiyear, nationwide initiative that 
includes a 6-day-a-week commercial-free kids block called HEAD 
RUSH. It will launch in August on our Science Channel, which is 
the only 24-hour-a-day channel devoted entirely to the amazing 
world of science. HEAD RUSH will feature MythBusters, the 
number-one show on Discovery Channel for 12- to 17-year-olds in 
the U.S. It will be hosted by MythBuster Kari Byron. We know 
girls often lose interest in math and science during their 
middle school years, and we believe Kari is a great role model 
who will inspire more girls and boys to fall in love with math 
and science.
    Here's a quick snapshot of HEAD RUSH.
    Let's roll the tape.
    [Video presentation.]
    Mr. Zaslav. To ensure that this content is accessible to as 
many kids as possible, we're allowing distributors across the 
country who want to make the Science Channel more widely 
available to do so at no additional cost to distributors.
    Discovery is ready, able, and eager to be a partner with 
the Federal Government in this great endeavor of supporting 
STEM.
    And I want to thank the Committee for the opportunity to 
speak. And I request an extended version of my testimony be 
entered into the record. And I look forward to answering any of 
your questions.
    Thanks for having me.
    [The prepared statement of Mr. Zaslav follows:]

        Prepared Statement of David Zaslav, President and CEO, 
                        Discovery Communications

I. Introduction
    Thank you Chairman Rockefeller, Ranking Member Hutchison, and 
distinguished members of the Committee for convening this important 
hearing. My name is David Zaslav and I am President and CEO of 
Discovery Communications, home to Discovery Channel, Science Channel, 
Animal Planet and Planet Green among other great brands. We are the 
world's number one nonfiction media company, with 13 television 
networks in the U.S. and over 120 networks in more than 180 countries. 
In addition, Discovery Education, our education division, provides 
digital content to over half the schools in the nation, making it the 
leading provider of digital media to America's classrooms. Our mission, 
as set forth by our founder John Hendricks nearly 25 years ago to this 
very day, is to empower people to explore their world and satisfy their 
curiosity with high-quality nonfiction content that entertains, engages 
and enlightens.
    When John first created our company, he named it the Cable 
Education Network. He soon decided Discovery Channel was a more 
descriptive way to communicate the ambition of what the channel could 
be. And Education has remained in the DNA of Discovery Communications 
ever since.
    Our organization's very first viewer phone call was from an 
educator. It was 1985, the year our visionary Founder and Chairman John 
Hendricks launched the Discovery Channel, and we had just aired our 
first program, ``Iceberg Alley.'' As soon as it was over, a teacher 
called to ask for permission to show it to her class the very next day. 
We agreed!
    So we've had a long-standing commitment to education and it's that 
commitment I'm honored to discuss with you today.
    As you know Mr. Chairman, America faces a serious challenge. In an 
age when innovation and knowledge are the drivers of economic growth, 
too few of our kids are passionate about--or versed in--science, 
technology, engineering, and math (STEM).
    I'm honored to be here today to talk about how Discovery can join 
with you, the Obama Administration and private industry to help inspire 
our children to love science!
    If we don't ignite that passion, this country will simply not be 
able to meet our most pressing challenges--from energy security to the 
environment to urban development.
    Mr. Chairman, just a little over a year ago, you visited the Mount 
View School in Welch, West Virginia to celebrate a phenomenal teacher, 
Ed Evans. Mr. Evans won the title of ``America's Top Science Teacher'' 
in our Discovery Education--3M Young Scientist Challenge, which for 12 
years has been encouraging the exploration of science among America's 
middle school students.
    You got to be a student in his class that day, even joining the 
kids to dissect owl pellets. The kids were so enthralled with the 
lesson--which Mr. Evans brought to life with our online science 
education service--that they barely seemed aware of the cameramen in 
the room. And, Mr. Chairman, however you feel about owl pellets, I 
would guess that you were moved by your experience.

II. Discovery's Mission
    Mr. Evans and his class embody the heart of our mission.
    We believe that all girls and boys can fall in love with science. 
Kids' innate curiosity, limitless sense of possibility, and wide-eyed 
fascination with all creatures great and small make them natural 
explorers.
    We believe that we have an obligation to capitalize on this sense 
of wonder, to encourage kids' desire to investigate the world, and to 
help them understand all they see.
    We believe this is critical--because developing and honing their 
curiosity, critical thinking, and reasoning skills will serve them in 
whatever path they choose. And teaching children how to blend those 
tools with a healthy imagination will not only help them live rich and 
fulfilling lives--it will help our country stay on the cutting edge of 
exploration and innovation.
    What if all science classes were as engaged as Mr. Evans' class?
    What if every kid in America believed that geologists were the real 
rock stars?
    What if kids obsessed about physics the way they do about Facebook?
    What if every computer, iPod, and TV was transformed into an 
exciting new place to learn about science?
    Could we unleash the next great generation of scientific 
advancement?
    At Discovery, we believe we can. And we believe we must.

III. Global Competition
    In 1983, just 2 years before Discovery Channel's launch, the 
National Commission on Excellence in Education released the seminal 
report, ``A Nation at Risk.'' It documented a decline in American 
educational achievement, warning that, ``Our once unchallenged 
preeminence in commerce, industry, science, and technological 
innovation is being overtaken by competitors throughout the world.'' 
\1\
---------------------------------------------------------------------------
    \1\ U.S. Department of Education. National Commission on Excellence 
in Education. A Nation at Risk. April 1983. http://www2.ed.gov/pubs/
NatAtRisk/risk.html.
---------------------------------------------------------------------------
    Sadly, over two decades later, very little has changed. According 
to the National Center for Education Statistics, almost one-fifth of 
fourth-graders and almost one-third of eighth-graders scored below the 
basic level of achievement on national assessments (U.S. Department of 
Education, Institute of Education Sciences, National Center for 
Education Statistics, National Assessment of Educational Progress 
(NAEP) 2009). The United States ranks 21st of 30 OECD countries in 
scientific literacy, and U.S. students scored below the OECD average in 
math literacy (U.S. Department of Education, Institute of Education 
Sciences, National Center for Education Statistics, Highlights from 
PISA 2006: Performance of U.S. 15-Year-Old Students in Science and 
Mathematics Literacy in an International Context).
    Even as the promise of scientific innovation has exponentially 
increased, American students have lost interest in science, technology, 
engineering, and math. Between 1960 and 2001, the number of U.S. 
bachelor or graduate degrees awarded in engineering, math, or physical 
sciences had dropped by 50 percent, from one out of every six to one 
out of every ten of all degrees awarded in our country. (National 
Science Foundation, Science and Engineering Indicators, 2004.)
    This is happening at a time when we badly need STEM professionals. 
Over the next decade, baby boomer retirements will cut the science and 
engineering workforce in half. Meanwhile, according to the National 
Science Foundation, jobs in science and engineering will increase three 
times faster than jobs in every other sector. (National Science 
Foundation, Science and Engineering Indicators, 2004.)
    If the economic crisis has taught us anything, it's that 
innovation, technology, and entrepreneurship are the wave of the 
future.
    But without a strong STEM work force, future generations will be 
ill equipped to solve tomorrow's scientific challenges, threatening 
America's global competitiveness.
    Countries like India, China, and South Korea relentlessly focus on 
math and science, and produce far more technical experts in these 
fields every year than we do. They understand that the key to the 21st 
Century economy lies in these critical areas. Whichever nation can 
build the next electric car or cure cancer or develop new renewable 
sources of energy will thrive in decades to come.
    But right now, science and math aren't nearly cool enough for 
America's kids.
    The 2005 National Academies of Science study, ``Rising Above the 
Gathering Storm: Energizing and Employing America for a Brighter 
Economic Future'' detailed this challenge. It's telling that the 
report's first recommendation is to dramatically improve STEM 
education.
    We commend Congress for responding to the study by enacting the 
2007 America COMPETES Act, which contains crucial STEM provisions like 
scholarships to recruit and develop new STEM teachers. We look forward 
to its reauthorization.
    We also commend President Obama's call to action to raise student 
achievement in math and science. We are proud to be a partner in the 
Administration's ``Educate to Innovate'' initiative, which spurs 
partnerships across the private, public and non-profit sectors in an 
effort to restore America's place as a global leader of scientific 
achievement and innovation. We are encouraged by the President's strong 
commitment and by the Federal Government's serious investment in STEM 
education. And we're using our expertise and resources to innovate how 
we deliver STEM education, particularly science education, to our 
youngsters.

IV. Fulfilling the Mission
    When the Discovery Channel first went on the air 25 years ago, few 
families owned personal computers, Microsoft had just released its 
inaugural Windows 1.0, and the American public was just introduced to 
the latest technology called the `compact disc.'
    You may be hard pressed to find a 13-year-old who owns a CD these 
days.
    Today's students live in the digital world. They are astonishingly 
familiar with digital media and technology, and they can interact with 
information--and process it--at rapid speeds. They multitask, engage 
across different media, and communicate with each other and a diverse 
array of content instantly and constantly. They e-mail, text, tweet, 
and chat. They carry video clips in their hands.
    It's a whole new world. And it's a whole new student--which means 
fulfilling the mission of delivering great STEM content that engages, 
excites, and educates today's kids looks very different from what it 
looked like in 1985.
    That's why Discovery launched the ``Be the Future'' campaign, a 
multimedia, multi-year, nationwide initiative--aimed inside and outside 
the classroom--that celebrates and teaches how science shapes the 
world.
    We made a decision nearly 5 years ago to form Discovery Education. 
Today, Discovery Education is on the leading edge of harnessing 
technology to create innovative digital services that make science and 
math curricula more engaging. To make sure these new tools and 
resources are maximized to their highest potential, we are also 
providing effective professional development for teachers.
    Today, 1 million educators, and more than half of U.S. schools, use 
Discovery Education's digital services. There are more than 125,000 
members in our Discovery Educator Network, the global professional 
learning community supported by Discovery Education and offering 
educators free professional development and networking opportunities. 
As a result, our content reaches 35 million students.
    For example, Discovery Education streaming, offers teachers and 
students more than 150,000 digital learning objects, including videos, 
interactives, images, articles and more, that integrate seamlessly into 
any curriculum. Aligned to state standards and assessments and 
searchable by keyword, content area and grade level, the rich video 
content and other digital assets from Discovery Education engage 
today's students in learning.
    And we've seen evidence that increased Discovery Education 
streaming use is associated with higher achievement scores in math and 
reading. It makes sense--today's kids are digital learners.
    Today's science teacher can do more than just lecture about 
volcanoes. Through Discovery Education Science, our web-based digital 
curriculum service correlated to state science standards and organized 
around an inquiry-based framework, a science teacher can download a 3-
minute video clip, as well as accompanying multimedia simulations, that 
take her students not only to a volcano, but around the world, so that 
students can witness the impact volcanoes have on our environment.
    But we're ready to do more. We want to take what we've learned, 
strengthen our programming, and broaden our impact. That's where ``Be 
the Future'' comes in.
    ``Be the Future'' includes more classroom-based initiatives like 
STEM Connect. A curriculum-based and career development resource 
launched in November 2009, STEM Connect is designed to fuel teacher and 
classroom engagement by helping students link science, technology, 
engineering and mathematics to the real world. Through a collection of 
rich media, educational content, career exploration tools, 
interactives, and hands-on activities, STEM Connect makes science 
concepts come alive.
    Instead of just reading about what makes a car aerodynamic or why 
some cars are more fuel efficient than others, a 9th grade science 
class can go to our website and apply these concepts by building a 
virtual vehicle.
    We're also using our resources to help teachers be even more 
effective with their students. We've partnered with the Siemens 
Foundation to create the Siemens STEM Academy, a national initiative 
offering free hands-on and web-based STEM professional development 
resources and opportunities for educators that boost science, 
technology, engineering and math learning in the classroom.
    A major component of the Siemens STEM Academy is a week-long, 
immersive Institute planned for this summer in Washington, D.C. During 
this Institute, educators from around the Nation will learn from the 
top minds in the STEM field, take field trips to local institutions to 
see the real world applications of STEM subject matter, and network and 
collaborate with peers from across the U.S. We hope that the 
reauthorization of America COMPETES will enhance these sorts of 
practical professional development opportunities for teachers.
    In addition, Discovery will continue to host its popular science 
competitions, like the Discovery Education-3M Young Scientist 
Challenge, which allows excellent science students to demonstrate their 
talent in fun ways.
    It's important to note that the past two winners of this contest 
have been young women. We know that girls often lose interest in 
science and math in the middle school years. So we're excited about the 
possibility of competitions like this to engage girls and minorities in 
the subject of science, giving them a new forum to shine in a 
discipline where they are vastly, and needlessly, underrepresented.
    These are just a few examples of our classroom-based initiatives. 
And Discovery will continue to develop and deliver innovative solutions 
for the classroom.
    But what about the hours when kids aren't in school?
    The truth is that when they're not in class--and sometimes even 
when they are--they spend much of their time engaging in social media. 
According to a recent Kaiser Family Foundation survey of 2,000 people 
ages 8 to 18, today's kids spend more than 53 hours a week with digital 
media. This constant interaction with media equates to a full-time job 
of learning through ``untraditional'' means (Kaiser Family Foundation, 
Generation M2: Media in the Lives of 8-18 Year Olds, 2010).
    So outside of the classroom, ``Be the Future'' is using that media 
to connect kids with science even after the school bell rings.
    We call this ``Science 360''--reaching kids where they are, from 
every possible angle, with every imaginable tool.
    That is why I am proud that Discovery Communications is the only 
media company with a 24-hour channel devoted entirely to all facets of 
the amazing world of science, and Science Channel lives across many 
platforms. In addition to working with some of the foremost science 
minds in the world, we are working with the best award-winning 
storytellers and directors in Hollywood, like Steven Spielberg, James 
Cameron, Morgan Freeman and Will Smith. Even SIMS creator Will Wright 
is bringing his gaming genius to the network. They are igniting their 
love of science to inspire others to imagine what might be possible.
    This commitment to bringing the wondrous world of science to our 
children is illustrated in the Science Channel's 6-day-a-week 
commercial-free kids block, called HEAD RUSH, which will launch in 
August. And because we want to ensure that this content is available to 
as many kids as possible, we're offering it to distributors at no 
additional cost.
    We're thrilled that some distributors have already taken advantage 
of this opportunity for their subscribers. Direct TV has already agreed 
to make the Science Channel more widely available, and Cablevision--
which has a strong interest in science literacy and other educational 
initiatives--has made the service available to the majority of their 
subscribers. Our hope is that as more of our affiliate partners follow 
suit, and as more kids get into HEAD RUSH, we'll be able to create even 
more new content, with some of the most prominent directors and 
storytellers in Hollywood and the music industry, to feed these hungry 
minds. If HEAD RUSH were accessible to a broader base of kids--and not 
simply those in the more affluent homes that have broad digital cable 
packages--we would be able to supercharge the block with even more 
exciting content.
    HEAD RUSH will include one of our most popular programs, 
MythBusters, whose team tests hypotheses involving everything from 
whether it's possible to train a fish to whether a person can be sucked 
down by killer quicksand. Called ``the best science show on 
television'' by the New York Times, it's the #1 show on Discovery 
Channel for 12-17 year olds.
    And because we know that girls often lose interest in math and 
science during their middle school years, we chose Kari Byron, a self-
described ``artist, science chick, and working mom,'' and an integral 
part of the MythBusters team, as the host of HEAD RUSH. Kari is a great 
role model--and we hope she'll inspire more girls--and boys--to fall in 
love with math and science. We hear regularly from educators that they 
love MythBusters and how it helps demystify science and make it 
relevant and engaging to young people.
    In addition to the MythBusters episodes, we are creating original 
short-form content to encourage and excite kids. In HEAD RUSH, Kari 
will be doing hands-on science projects and playing interactive games 
with kids across the country. It will take the form of fun and exciting 
question and answer segments challenging students to test their 
knowledge with STEM-based content. We will also feature high-profile 
Discovery Communications talent who serve to illustrate how the 
``coolest careers'' use STEM every day: Architect Danny Forester from 
Science Channel's hit series ``Build it Bigger'' shows how math informs 
the engineering work on a construction site; the intrepid team on 
Discovery's ``Storm Chasers'' who rely on advanced technology to help 
them hunt down tornadoes present a question about the physics of the 
natural world. The idea is to create dynamic and entertaining scenarios 
that illustrate how STEM is an integral part of everyday life. In 
addition, we will cover kids creating their own science and feature 
them as they unfold the exciting and amazing world in their own 
experiments. And to round off our commitment, we will create an 
original STEM PSA that will run across all of our networks in the 
United States.
    As part of ``Be the Future,'' John Hendricks, Discovery's visionary 
founder, is spearheading an exciting new series called ``Curiosity: The 
Questions of Our Life.'' In partnership with some of the leading 
universities across the county, it will tackle the fundamental 
questions and underlying mysteries of everything from space to medicine 
to archaeology to the human mind. It is a five-year, 60-episode 
endeavor that will begin airing on Discovery Channel and Science 
Channel next year.
    We're also launching ``Energy: Powering the Future,'' a forward-
looking series that explores what the world will look like in 2050 from 
a scientific perspective in a cool and engaging way. And we're linking 
the program to Facebook and Twitter, giving kids, parents and teachers 
a way to join the conversation and connect with real-life scientists 
and experts.
    Our vision is that the 9th graders who build their virtual car in 
class might come home to an episode of ``Energy'' about what cars will 
be like in the future. And then perhaps they'll log onto their Twitter 
account and start following news about the latest science 
breakthroughs.
    In addition, Discovery Education is working with cable operators 
outside the classroom to bring our rich, educational programming to as 
many families as possible. In partnership with Comcast of Indianapolis, 
families now have access to compelling educational VOD content through 
Discovery Education on Demand, by Comcast.
    We think it's possible. Take it from a recent wall posting on the 
Science Channel Facebook page: ``The Science Channel rules and now I'm 
all excited about nanotechnology, Moore's law, and futurism and time-
space relativity!''
    This is what Science 360 is all about.

V. Conclusion
    Mr. Chairman, if we're serious about improving STEM education, then 
we have to acknowledge and accept that today's students live in a 
different world than the one we have known. We need to begin moving 
beyond traditional educational materials like the static textbook and 
toward engaging classrooms and living rooms that are alive with 
compelling visuals and storytelling. Most of all, we have to respect 
that as children have evolved, their way of learning has evolved--and 
it's up to us to make sure that our teaching evolves, too.
    America needs a world-class STEM workforce to tackle the challenges 
of the next generation, from energy security to stemming infectious 
disease.
    And America needs a generation of young people who are curious 
about the vast unknown universe, who are excited about discovering its 
wonders, who are inspired to push the limits of what's possible.
    Discovery believes that we have an obligation to help our 
youngsters cultivate that curiosity, that excitement, that sense of 
wonder. We're ready, able, and eager to be a partner with the Federal 
Government in expanding and innovating how we teach science--and we are 
convinced the potential for what our children can achieve is limitless.
    Thank you very much.

    The Chairman. All statements will be entered into the 
record automatically.
    Thank you very much.
    Ms. Naylor.

          STATEMENT OF MS. SUSAN NAYLOR, NBCT, PAEMST,

           INSTRUCTIONAL COACH, WOOD COUNTY SCHOOLS,

                   PARKERSBURG, WEST VIRGINIA

    The Chairman. Pull the mike up, too.
    Ms. Naylor.--booster chair.
    Senator Rockefeller referred to the Presidential----
    Do I get my 5 minutes back?
    I was here in Washington, D.C., in January with all of the 
Nation's Presidential award-winners. And we had an opportunity 
to compare notes with each other. And the priority concern, 
unanimously, among all of us was professional development for 
teachers.
    When Senator Rockefeller was in Parkersburg, one thing that 
I mentioned to him is that it seems like most of the teachers 
in the work force, a lot of them, are my age; we grew up in the 
1950s and the 1960s. And we were led to believe, whether 
consciously or directly, that science and math fields were not 
for girls. And so, we became accustomed to thinking that we 
couldn't do it, that it was too hard.
    Those same teachers are in the classrooms today, and they 
went through college in the 1970s, and they did not get the 
content knowledge that they need to feel confident to help lead 
children in the fields of science and mathematics.
    Teachers need onsite embedded professional development. 
They are very busy with their families, running to soccer games 
and church meetings. They can no longer pack up a suitcase and 
go to a big metropolitan center for 3 days of training and then 
go back to their classrooms and pick up their lives and have no 
support or nothing to sustain what they learned. They need to 
have professional development delivered to them in their own 
classrooms, and they need to have a support network that will 
help maintain that implementation.
    The whole Nation is in a transformation from traditional 
teaching, which most us--most of the teachers in the teaching 
field grew up as students of traditional teaching, where the 
teacher stands in front and lectures, to more inquiry-based 
investigative experiential science and math activities, which--
research shows children learn much deeper content when they 
experience science and math this way.
    When Senator Rockefeller was visiting with us, he mentioned 
about the spark. And what do you do about that spark of 
curiosity in young children? I can tell you that, as a veteran 
first-grade teacher for 30 years, 6-year-olds come to school 
with that spark. I don't know what happens by the time they get 
to middle school, except that I think the teachers that are 
intimidated by content end up falling back on the traditional 
strategies and materials that they are comfortable with, even 
though they are not as effective. And some of that spark fails 
to get ignited into flame. And then those children become just 
as intimidated by math and science as I was.
    I never would have imagined, in high school, that I would 
have been receiving a Presidential award for excellence in 
mathematics. I'm sure my high school teachers would never have 
believed that, either.
    Another thing that teachers campaign for is new 
certification areas. We would like to--because many of us do 
not have the deep content knowledge that we need, not only in 
science and math, but also in understanding technology and how 
to integrate it into classrooms, we would like to see 
certification fields that endorse those things, that prepare 
teachers, that can be support in the classrooms for teachers as 
they do this. We'd like to see incentives for veteran teachers, 
like myself, to go in and retrain in these certification areas 
and bring that expertise into classrooms.
    One thing that concerns me is some of the secondary 
teachers that I talked to talked about scholarships for STEM 
students. I'm a little bit concerned about scholarships that 
focus on GPA, because if children are protecting their GPA so 
that they are eligible for scholarships, they are not going to 
attempt these harder courses.
    I'm also a little bit concerned, as Senator Hutchison was 
referring to--the time that is given to reading in elementary 
schools is protected. In West Virginia, it's 90 minutes a day, 
uninterrupted. But, math only gets 60 minutes. Recently, I 
heard a teacher suggest that we take science off our report 
cards. If we don't assess science, it's not going to get 
taught. And that is a very scary thing to me. A lot of the 
money for materials and teachers goes into reading that doesn't 
go into math and science.
    I am very interested in seeing more hands-on materials. 
Senator Rockefeller mentioned about parents getting involved. 
There are a lot of teachers that are willing to do parent 
training, to have family science nights in the evenings. But, 
they need the materials and the training to feel confident to 
be able to do that.
    I can't tell you how many parent-teacher conferences I've 
been in where a parent says--if a child's not doing well in 
math and science--they will say, ``Well, they get that 
honestly. I didn't do very well in math and science, either.'' 
But, they never say that about reading. We need to help parents 
feel confident about helping their kids with math and science.
    Thank you very much.
    And I hope that I am the first of many teachers that you 
will reach out to for their expertise and their experience, 
because the decisions that you all are making are going to 
affect what we can do for children in the classrooms.
    [The prepared statement of Ms. Naylor follows:]

         Prepared Statement of Ms. Susan Naylor, NBCT, PAEMST, 
  Instructional Coach, Wood County Schools, Parkersburg, West Virginia

    Chairman Rockefeller, Ranking Member Hutchinson and members of the 
Committee, thank you for this opportunity to bring a teacher voice to 
your work.
    During the past 10 years, I have served on a variety of initiatives 
that have shaped the evolving face of mathematics education in West 
Virginia. I have seen our instructional standards written and re-
written during that time, in a continued effort to improve the rigor 
and relevance of the curriculum we provide our students. Focus on 
relevant assessment and technology integration has also been 
emphasized. STEM education programs that have provided the funds for 
research and development in these areas, like the Re-invent initiative, 
have been extremely effective.
    As a veteran teacher, I have several concerns for your 
consideration as you make decisions that will impact the future of 
science, mathematics and technology instruction in America's 
classrooms.
    Earlier this year, I visited Washington, along with the other 
Presidential Awardees in Mathematics and Science from across the 
Nation. While here, we were provided opportunities to talk with each 
other. The unanimous and highest priority concern of the entire group 
was professional development for teachers. There is currently a 
difficult transformation taking place in classrooms as ``traditional'' 
teachers face the unavoidable transition to the more ``inquiry'' based 
teaching philosophies and materials needed to support students in 
reaching higher standards. Research indicates that children acquire and 
retain deeper conceptual understanding of both mathematics and science 
through experiential problem solving. However, many teachers have not 
received sufficient professional development to feel confident using 
these new strategies and materials, so they fall back on what is 
familiar, even though not as effective. Teachers also need deeper 
understanding of their own content areas in order to effectively 
challenge and remediate students on different levels. I am very 
encouraged by the new Common Core standards that will provide common 
benchmarks nationwide. They will foster collaborative professional 
development initiatives that will not only provide consistency between 
states, but hopefully save money as we cease trying to reinvent the 
same wheel 50 times.
    Teachers would like to see new certifications available, like 
elementary mathematics specialists and interventionists whose 
specialized content knowledge would support classroom teachers. 
Incentives for teachers who choose teaching certifications in the STEM 
fields would help recruiting, and of course, fair and equitable 
salaries would help encourage highly qualified teachers to stay in 
education instead of seeking higher salaries in other fields. Another 
consideration would be a system of recognizing and rewarding teachers 
who do integrate STEM initiatives in their classroom
    More scholarship incentives available in STEM fields could make a 
powerful impact on student career choices. However, scholarships that 
focus too much on a student's GPA encourage them to take easier classes 
to protect that GPA, instead of taking on the challenge of more 
difficult classes. There is also the issue of ``teaching to mastery'' 
as opposed to the traditional ``63 percent as passing'' to consider. 
College course offerings in the STEM fields would be more accessible to 
students if they were available on community campuses and would provide 
a more seamless transition from high school to college level courses.
    Elementary teachers are concerned about the discrepancy between the 
emphasis placed on Reading/Language Arts and that placed on Mathematics 
and Science. In many states, the amount of instructional time as well 
as the amount of money invested in materials and intervention programs 
is much higher for reading. I recently learned of a proposal to remove 
Science from elementary report cards. That worries me; what gets 
assessed is what gets taught. If 80 percent of the careers of the 
future are rooted in science and mathematics, these subjects should be 
receiving more emphasis, not less.
    Money is another issue. The cost of hands-on inquiry science 
materials, like SIMPLE (Science Inquiry Modules and Problem-based 
Learning Experiences) kits and Nova labs is high, not to mention the 
refurbishment of consumable materials for them, but they are the best 
vehicle for teaching deep conceptual understanding. The northern 
panhandle area of West Virginia has seen improvement in science scores 
since the implementation of these materials. At the same time, West 
Liberty University, located in the same area, has seen an increase in 
students pursuing degrees in science!
    West Virginia has been proud of the technology integration in our 
classrooms, but sustaining it is becoming a losing battle. In this area 
as well, teachers have not received sufficient professional development 
to feel confident integrating technology into their instruction. 
Technology integration specialists who could support classroom teachers 
are too few and far between, some even being eliminated as funds are 
cut. At Parkersburg High School, (1,750 students), there are nearly 700 
computers, but not one full time tech to service them. It is not 
unusual for a work request for computer repair/maintenance to take 90 
days for response. In my school system, there are approximately 4000 
student computers, and at a replacement rate of 10-15 percent each 
year, these machines need to stay in service for 8-10 years, but many 
of them were refurbished to begin with. All classrooms need interactive 
whiteboards to facilitate and engage students in collaborative learning 
and teachers need support in incorporating them.
    Many teachers feel that more direct contact between students and 
the community businesses that will need graduates in the STEM fields 
would make career choices in these fields more likely. Shadowing 
programs, visiting experts in classrooms, and partnering projects are 
avenues for cultivating these relationships.
    A second major concern expressed by the Presidential Awardees was 
the need for teachers to be given a voice in decisionmaking beyond the 
local level of their own school systems. Thank-you for giving me that 
opportunity today and hopefully other teachers will take my place here 
as you reach out for the experience and expertise they can bring to 
your work.

    The Chairman. Thank you very, very much.
    Dr. Gates.

             STATEMENT OF DR. S. JAMES GATES, JR.,

        JOHN S. TOLL PROFESSOR OF PHYSICS AND DIRECTOR,

              CENTER FOR STRING & PARTICLE THEORY,

           PHYSICS DEPARTMENT, UNIVERSITY OF MARYLAND

    Dr. Gates. Good morning, Chairman Rockefeller----
    The Chairman. You've got your--push your button there. 
There we go. OK.
    Dr. Gates. Good morning, Chairman Rockefeller, Ranking 
Member Hutchison, and other distinguished members of the 
Committee.
    I also want to greet my fellow witnesses and all who work 
for the security of the brightest possible future for our 
Nation.
    Thank you for inviting me to testify on the subject of 
America Wins When America COMPETES.
    I'm Jim Gates, the John S. Toll Professor of Physics at the 
University of Maryland and also the head of a research center 
there in something called ``string theory.''
    The Committee's letter asked me to address four points: my 
own STEM story, ways to improve diversity in STEM fields, ideas 
to produce more qualified STEM teachers, and a perspective and 
recommendations on national STEM programs.
    I emphasize my comments and perspectives will be personal 
ones. I am not speaking on behalf of any organization nor group 
with which I am affiliated.
    My own STEM story begins with my father--my grandfather, 
Joseph, a poor, but land-owning farmer in Alabama. Though 
Joseph could neither read----
    [Brief audio interruption.]
    The Chairman. It was--it's the voice of God.
    [Laughter.]
    Dr. Gates. What do I do about my time?
    [Laughter.]
    The Chairman. You go right ahead. Go right ahead, sir.
    Dr. Gates. Thank you.
    Though Joseph could neither read nor write, he was good at 
ciphering, i.e., arithmetic, and was fond of saying, ``People 
don't mind being around people who know how to work hard.'' 
Their second son, Sylvester James Gates, Sr., was my father. In 
1941, my dad entered the U.S. Army as a 128-pound, 17-year-old 
kid, and he went to the second World War, and served 13 months 
in the famous Red Ball Express.
    Near the Battle of the Bulge Memorial in Orlando, Florida, 
a brick bears the following inscription: ``S. J. Gates, Staff 
Sergeant, Quartermaster, Truck Corps, Red Ball Express.'' And 
this brick is a symbol not just for what my father's life was, 
but for the foundation he laid for my life. Dad never had the 
opportunity to go to college. And yet, he had that dream for 
his children, which he fostered the entirety of our lives.
    Related to his work in the military, he also had a 
fascination with mathematics, trigonometry, and he enjoyed 
studying equations. And I can remember watching at Fort Bliss 
as this happened.
    At the start of the Space Race, he started buying books 
about it for me. I was born in 1950, so by the time I was 
learning to read, no one had ever been into space. I learned 
that those sky--the lights in the sky were places to which one 
could go. And I began dreaming about becoming an astronaut. 
But, I knew science was the way that you got there.
    In 1969, I entered MIT. Four years later, I earned two 
bachelor's degrees, the first in math, the second in physics. 
And in 1977, I graduated with my Ph.D. in physics. From there, 
I went to Harvard and Caltech to do research on string theory, 
which even was starting then. And my research has always been 
supported by the National Science Foundation, at this boundary 
of mathematics and physics, in a subject called 
``supersymmetry.''
    In 1998, President Clinton announced that the United States 
would support research at the Large Hadron Collider in Geneva. 
And if this idea of supersymmetry is correct, we will find new 
forms of matter and energy, and perhaps some solutions to our 
problems.
    As the Chairman of the Physics Department at Howard, 
capacity-building was my goal. As a result of my efforts, 
within 3 years there, we had $12 million of new sponsored 
research, sponsored by the National Aeronautics and Space 
Administration and the Department of Energy. I understood the 
power of partnering with government agencies.
    My outreach for STEM spans the world. I've done public 
lectures, science documentaries, and DVDs with a teaching 
company. And the National Science Foundation encourages 
scientists like me to get out and talk to the public about what 
it is that we do.
    So, that's it for my part of this story, as you can see, 
it's woven throughout, with connections to actions that are 
carried out by this body.
    Regarding improvement in diversity, a fundamental 
observation of the No Child Left Behind Act was, many minority 
students are relegated to schools with poor teacher 
effectiveness. I'm a college professor, and I actually see the 
effect of this as students enter college in their freshman 
year. Diversity is a critical issue, and yet, when we find our 
minority students entering college, often they are discouraged.
    Last Fall, I met with a group on campus called ``Achieving 
College Excellence.'' It's designed for students who are 
struggling in their first year. I remember seeing the faces of 
young African-American students, in particular, who were told, 
for the first time in their lives, ``Your past accomplishments 
in math were not sufficient.'' They had been caught and 
betrayed by the gap in teacher preparation that they acquired 
to that point.
    I'm going to defer the rest of my comments to the written 
record and simply go to the end.
    I thank this committee for the opportunity to speak today 
on the matter of pressing concern to me as an educator, a 
parent, a scientist, and somewhat as an educational policy 
wonk. I ardently wish that my family, community, and Nation--a 
Nation, in the century ahead--will witness a continuation of 
what I think is perhaps the sweetest dream of humanity, the 
American dream.
    My STEM story is full of examples where the Federal 
Government supported acts, like the America COMPETES Acts, that 
allowed a--the grandson of a poor Alabama sugarcane farmer to 
become a theoretical physicist. Your authorization, or 
reauthorization, of this Act can help the next generation to 
achieve their dreams in the same manner.
    Thank you.
    [The prepared statement of Dr. Gates follows:]

 Prepared Statement of Dr. S. James Gates, Jr., John S. Toll Professor 
 of Physics and Director, Center for String & Particle Theory, Physics 
                   Department, University of Maryland

    Good morning, Chairman Rockefeller, Ranking Member Hutchison, and 
other members of the Committee. I also wish to greet my fellow 
witnesses and all who work to secure the brightest possible future for 
our Nation.
    Thank you for inviting me to testify on the subject of ``America 
Wins When America COMPETES: Building a High-Tech Workforce.'' I am Jim 
Gates, the John S. Toll Professor of Physics and Director of the Center 
for Particle & String Theory in the Department of Physics at the 
University of Maryland, College Park.
    The letter from Chairman Rockefeller asked me to speak on four 
points:

        a. my own STEM story,

        b. ways to improve diversity in STEM fields,

        c. ideas to produce more qualified STEM teachers, and

        d. a perspective and recommendations on national STEM programs 
        and policies.

    I emphasize my comments and perspectives are personal ones. I am 
not speaking on behalf of any organization or group with which I am 
affiliated.

Point 1: My STEM Story
    The story begins with my grandfather, Joseph Gates--a poor but 
land-owning farmer--in the area of Linden, AL. Though Joseph could 
neither read nor write, apparently he had a ``knack for ciphering'' 
(i.e., arithmetic) and he was fond of saying, ``People don't mind being 
around people who know how to work.'' Together with his wife Annie Lee 
Hudson Gates, they became the parents of Sylvester James Gates, Sr. 
Near the Battle of the Bulge Memorial at Lake Eola in Orlando, a brick 
bears the following inscription, ``S. J. Gates, Sr Staff Sergeant, 
Quarter Master Truck, Red Ball Express,'' a symbol of a young man who 
decided he would leave the farm to seek a better life. Metaphorically, 
the brick described above has an even greater significance to me. It 
represents a foundation laid for my life.
    In 1941, S. J. Gates, Sr., began his 27 years in the U.S. Army 
including 13 months in the European Theater of Operations. By 1961, he 
had obtained the rank of Sergeant Major and on that occasion said, ``I 
hope I may continue to serve my country in a manner that is worthy of 
the honor it has given me.'' My father never had the opportunity to 
attend college (as was the case for all members of his family), but he 
did have a fascination with mathematics. I recall watching him at the 
study of trigonometry on the post at Ft. Bliss. He especially enjoyed 
his command of understanding equations describing motion. These are 
related, of course, to artillery accuracy.
    During the start of the ``space race,'' he brought home books about 
it for me to read. These fired my imagination with the idea that the 
lights (stars) seen in the night sky were places to which one might 
travel. I dreamed of becoming an astronaut, but also instinctively knew 
that science was the means by which one might reach the stars . . . 
however distant. This marked the beginning of my lifelong pursuit of 
the study of science . . . and just missing the chance to become an 
astronaut.
    In the Fall of 1969, I became a freshman at the Massachusetts 
Institute of Technology (MIT), the first of my family to reach college, 
with part of the expenses covered by a National Defense Student Loan. I 
received Bachelor of Science degrees in mathematics and physics in 
1973. Four years later, still at MIT, I was granted a Ph.D. degree in 
physics with my father attending the graduation ceremony.
    My research has focused on a topic at the boundary of math and 
physics starting in 1977 when I wrote a thesis on a topic called 
``supersymmetry.'' The National Science Foundation has provided 
invaluable support for this sort of research over the years. 
Supersymmetry is one of the main properties of nature under 
investigation at the Large Hadron Collider. The Department of Energy 
has supported the construction of the major scientific instruments 
there as well as hundreds of U.S. scientists who designed, built and 
operate them. If new forms of matter and energy predicted by 
supersymmetry are discovered, it will have been unwritten by the 
actions of the U.S. Congress.
    As Chair at the Howard University physics department, capacity-
building was my goal. As a result within 3 years, there were over $12 
million in new sponsored research activity in the department. One 
source was a large grant from the National Aeronautics and Space 
Administration (NASA). A second grant, from the Department of Energy 
(DoE), was the largest single DoE research grant ever made to an HBCU. 
I understood the potential for a transformation in a STEM field with 
the assistance of government agencies.
    My outreach efforts on behalf of STEM fields have occurred via 
public lecture, television science documentary, and DVD presentations 
in efforts to broadly communicate fundamental science. These 
experiences have shown me how difficult it is for these subjects to be 
communicated in clear ways beyond the laboratory or university. The 
National Science Foundation has played a major role with its support of 
documentaries like `The Elegant Universe' where many physicists 
(including me) told a story from the frontier of physics.
    A member of an international panel that provided recommendations to 
the government of South Africa on its national physics infrastructure, 
I participate in activities linking the African continent.
    The ``broad impact'' requirement of grants given by the National 
Science Foundation encourages scientists to take on responsibilities of 
communicating science broadly.

Point 2: Regarding Improvement Of Diversity in STEM Fields
    A fundamental observation related to the No Child Left Behind 
(NCLB) Act of 2001, was that many minority students are relegated to 
schools where teacher effectiveness is low. This is an even greater 
challenge in STEM. The No Child Left Behind Act marked the first time 
the Federal Government made a commitment to address this problem. As 
Secretary of Education Duncan has said,
    ``You all well know that it is hard to teach what you don't know. 
When we get to sixth, seventh, and eighth grades, we see a lot of 
students start to lose interest in math and science, and guess why, 
because their teachers don't know math and science so it is hard to 
really instill passion and a love for learning if you are struggling 
with the content yourself.''
    If we wish for this Nation's diversity to be demonstrated in STEM 
areas, we must provide incentives for gifted and effective STEM 
teachers to go where they are needed. The Obama administration's recent 
``Blueprint for Reform,'' underscores this core principle.
    Diversity is a critical issue, particularly in the STEM fields. The 
Olympics give us an example of how diversity is addressed in a positive 
way. America's athletes have benefited from the full participation of 
citizens across the widest demographic spectrum. I believe the same 
could happen in STEM fields. New perspectives offer the possibilities 
of new breakthrough innovations.
    What are the concrete ideas that might allow for such increases of 
a diverse STEM community? Currently there are few examples in the 
kindergarten to twelfth grades. Among these are the projects known as 
the Harlem Children's Zone, San Diego's High Tech High, and the 
Knowledge Is Power Program (KIPP) schools located in 21 states. They 
seem to be able to close the persistent gaps in the science and math 
performances of African-American and Hispanic students in comparison to 
the total national performance.
    As a professor, I have seen what this gap does to young students as 
they enter college. At the University of Maryland, we have the 
Achieving College Excellence (ACE) program (among others) to assist 
with this transition. In the fall of 2009, I saw the pain and 
discouragement on the faces of some of our African-American students, 
when told for the first time, ``Your past accomplishments in math are 
not sufficient.'' They entered thinking themselves prepared to take on 
the challenge of college math only to find the gaps inherent in their 
K-12 education betrayed them. At this point some vocally began 
consideration of not majoring in STEM fields. Support of the core 
principle that effective STEM teachers should be available to all 
students seems critical if this is not to be the fate of similar 
students in the future.

Point 3: Ideas To Produce More Qualified STEM Teachers
    I defer this question to my fellow witness Mr. Luce, the former 
Assistant Secretary of Education for Planning, Evaluation and Policy 
Development. I believe, in his current role as the CEO of the National 
Math & Science Initiative, he has a terrific story to tell regarding 
development of programs to reach this goal.

Point 4: Perspectives and Recommendations on STEM Programs and 
        Policies
    Our nation faces a point I call ``an instant of destiny'' when we 
must act boldly, with insight and determination, to support fundamental 
educational reform, especially in STEM fields, to secure our future 
economic prosperity.
    Several weeks ago, I addressed the recipients of the President's 
Award of Excellence in Math & Science Teaching (PAEMST). Multiple 
personal and professional perspectives convinced me a certain title, 
``The Third STEM Crisis,'' was appropriate. I suggest there have been 
two other similar crises in the past one hundred years:

        1. World War II, and

        2. the launch of Sputnik.

    A key reason for the U.S. victory was innovation and mastery in 
STEM fields. However, for someone interested in policy, a more subtle 
and powerful example of how World War II shaped the future of 
innovation is from the paper, ``Science: The Endless Frontier'' by 
Vannevar Bush and written in 1945. He described how the crisis of war 
acted as a crucible to forge new capacities in our Nation and why these 
should not be allowed to dissipate as we left the wartime environment. 
In 1950 a government structure dedicated to the preservation and 
stewardship of this innovative capacity was inaugurated in the National 
Science Foundation.
    Within a decade, the launch of Sputnik caused a similar transition 
in capacity. Once more there is a ``front page story'' with of the 
creation of NASA and the ``space race.'' However, there were other 
policy related stories--the creation of the Defense Advanced Research 
Projects Agency (DARPA) and the National Defense Education Act (NDEA). 
In these crucial circumstances, the U.S. Congress understood and 
extended national structures related to STEM areas.
    We face a third STEM crisis. Today's world is one where STEM fields 
have become directly related to the ability of modern societies to 
generate wealth and provide for a vibrant economic environment for 
their citizens. If we want the most vital U.S.A. to exist tomorrow, we 
must plant the seeds for that today by investing in the strongest 
possible STEM education for all our citizens. The third STEM crisis is 
our current underperformance in STEM education today!
    We, as a country, must consider the creation of new national 
structures that at a minimum:

        a. focus on the practical processes of innovation in the realm 
        of education as DARPA does,

        b. seek to foster public/private partnerships to bring 
        solutions to scale by working with industry, universities, 
        after- and out-of-school programs, state and local 
        stakeholders,

        c. engage state-led efforts to create pathways by which highly 
        effective teachers of the STEM fields are made accessible to 
        all American students, and

        d. identify policy tools (new and old) by which the Federal 
        Government can better organize itself and effectively work with 
        state and local districts to overcome this third STEM crisis.

    Reaching the President's goal of moving American students, ``. . . 
to the top of the pack in science and math over the next decade,'' will 
require continuous dedication by our entire society, similar to the 
continuous dedication of Congress in passing the Morrill Acts, the G.I. 
Bill and a long list of actions going back to the 1830s.
    In the most emphatic way, I urge you to reauthorize the America 
COMPETES Act. The COMPETES Act authorizes, directly and indirectly, the 
resources to enhance STEM education by funding both education programs 
at the K-12 level and research that enhances the education of under-
graduate and graduate students and postdoctoral scholars.
    I thank the Committee for the opportunity to speak today on this 
matter of pressing concern to me as an educator, parent, scientist, and 
educational policy ``wonk.'' I ardently wish for my family, community, 
and Nation a century ahead that will witness a continuance of what is 
perhaps the sweetest dream of humanity . . . the American Dream. My 
STEM story is full of examples where federally supported acts, like the 
America COMPETE Act, allowed the grandson of a poor Alabama sugar cane 
farmer to become a theoretical physicist. Your reauthorization of this 
Act can help the next generation to achieve their dreams in the same 
manner.

    The Chairman. Thank you very much, Dr. Gates.
    Dr. Miaoulis. ``Meeowliss.''
    Senator Reed. Ioannis--no, no, I've got to get it--Ioannis 
Miaoulis.
    Dr. Miaoulis. Very good.

          STATEMENT OF DR. IOANNIS MIAOULIS, PRESIDENT

            AND DIRECTOR, MUSEUM OF SCIENCE, BOSTON

                  AND FOUNDING DIRECTOR OF THE

           NATIONAL CENTER FOR TECHNOLOGICAL LITERACY

    Dr. Miaoulis. Thank you. Thank you, Mr. Chairman. Thank 
you, Ranking Member and members of the Committee, for inviting 
me here.
    I'm Ioannis Miaoulis, President and Director of the Museum 
of Science, Boston, and Director of the National Center for 
Technological Literacy.
    I feel honored to be invited back. I testified here 4 years 
ago. And a lot of things have changed. It's wonderful to hear 
Senator Rockefeller and Senator Hutchison talking about 
technology and engineering within STEM. Four years ago, it was 
only about math and science. And you may recall that, 4 years 
ago, I encouraged this committee to start focusing in--on 
technology and engineering.
    If you look at what kids learn in science in schools, it's 
pretty much all about the natural world. They learn about rocks 
and bugs and dinosaurs, the water cycle, the human body, 
physics principles, chemical reactions. And they learn very 
little about the human-made world. However, if you look at the 
world around us, most of the stuff we deal with are human-made. 
If you look at this room and you take away the human-made 
objects in this room, there would be no microphones, there 
would be no tables, no chairs, no carpets, no building, no 
clothes, and most of us would not be here, because, without 
pharmaceuticals, which are human-made, the life expectancy is 
about 27.
    However, all these parts of the world, 98 percent, I would 
argue, of the world around us, is not part of the K-12 
curriculum. And this is what technology and engineering could 
teach kids--children how the human-made world around us works 
and how it is made. So, in parallel with kids learning the 
inquiry process--how scientists discover--they're learning the 
engineering design process--how engineers design.
    Another necessity of having technology and engineering is 
simply to support American competitiveness. American 
competitiveness depends a lot on the engineering work force. 
However, only 5 percent of U.S. students choose engineering as 
a major, compared with 13 percent of the students in Europe and 
20 percent of the students in China.
    So, why does the Museum of Science in Boston champion the 
introduction of technology and engineering? If you want to make 
a wholesale change in the Nation, so that everybody appreciates 
technology and engineering and kids are motivated to go into 
technology and engineering, you first have to change schools by 
introducing, as part of the formal core curriculum, technology 
and engineering. And second, you have to influence adults--the 
parents. And science centers and museums offer a wonderful way 
to influence adults, along with places like the Discovery 
Channel, to appreciate technology and engineering.
    So, I encourage this committee to keep supporting informal 
science education venues, such as museums of science, and TV 
channels, to encourage all citizens, both adults and children, 
to appreciate science and technology.
    We have made a lot of progress over the last 4 years. The 
National Governors Association has placed a special focus, 
within its efforts to support STEM, to support technology and 
engineering. If you look at the national report card, the new 
standards for NAEP, now 10 percent of the science test includes 
engineering. There will be a new national test on technology 
and engineering, starting in 2014--a new NAEP test. We have 
numerous States, now, having technology and engineering 
standards. It was only Massachusetts, last time we talked 
about. Now most of the states have engineering standards.
    And if you look at what the Museum's progress has been, the 
last time I present to you, we were working with a few hundred 
teachers and a few thousand students, and now we're up to 
25,000 teachers, and over a million and a half students use our 
engineering materials throughout the country, in all 50 States.
    The most exciting recent development in K-12 engineering 
was the introduction of the Engineering Education for 
Innovation Act, a bill in the Senate. Some of the Senators that 
supported this bill are actually here. We have--the Senators 
who supported the bill were Senators Gillibrand, Kaufmann, 
Snowe, Cantwell, Klobuchar, and Murray. And also, in parallel, 
we had the companion bill, introduced by Representative Paul 
Tonko, the same day.
    I have four recommendations, and some others that are in my 
written testimony:
    First, it would be wonderful if this new bill, the 
Engineering Education for Innovation Act, becomes part of 
America COMPETES Act. That would be a great start of the 
initiative. And this bill will enable all students in all 
states to engage in learning engineering, from kindergarten on.
    The second recommendation is that this committee support 
NASA's ability to become a national visible champion of 
engineering in this country. NASA is the most powerful and 
visible engineering entity in the world, and I think we're 
missing an opportunity, not having a place like NASA to become 
the public spokes-entity to inspire kids to pursue engineering.
    My third recommendation is about the National Science 
Foundation. Most of the new funding at NSF is focusing on 
research, how we should research to understand how kids learn 
science and technology and engineering and mathematics. 
However, I think, in parallel, NSF should be funding 
development of new materials, especially in areas where new 
materials are not abundant, such as engineering.
    And the fourth recommendation is to continue supporting the 
formal science centers in supporting the whole engineering and 
technology and math and science learning of children.
    I would like to thank, again, the Committee for supporting 
technology and engineering, and I hope that it will continue to 
do so.
    [The prepared statement of Dr. Miaoulis follows:]

  Prepared Statement of Dr. Ioannis Miaoulis, President and Director, 
    Museum of Science, Boston and Founding Director of the National 
                   Center for Technological Literacy

    Good morning and thank you, Mr. Chairman, Ranking Member, and 
members of the Committee. It is an honor to be invited back to discuss 
our Nation's ability to create a first class, competitive, and 
innovative workforce. My focus, and the work of the Museum of Science, 
Boston and the National Center for Technological Literacy  (NCTL ), 
is at the very beginning of that process, working with young students 
in elementary and secondary school.
    One of the Museum's primary missions is to promote and be a 
resource for the advancement of science, technology and engineering 
education. As New England's premiere source of public learning 
experiences, the Museum of Science serves as the go-to place for 
educators, students, and the public wishing to explore the relationship 
between science and technology through exhibits, planetarium shows, the 
Lyman Library, courses, and programs for all ages and abilities. The 
Museum also collaborates with partners throughout the Nation to develop 
instructional materials and professional development programs for 
teachers and school administrators about how new technologies are 
created using the engineering design process.
    The NCTL seeks to integrate engineering as a new discipline in 
schools nationwide and to inspire the next generation of engineers and 
innovators. The NCTL partners with educators, administrators, 
organizations, and industry representatives across the United States to 
introduce or modify standards related to technology and engineering and 
to provide cutting-edge curricular resources. Working together, we can 
engineer a better world for generations to come through our K-12 
curricular and professional development programs, advocacy efforts, and 
museum programs.
    Four years ago, I was invited to testify before the Science, 
Technology and Innovation Subcommittee to discuss K-12 engineering 
education, Rising Above the Gathering Storm, and what culminated in the 
America COMPETES Act (ACA). This ambitious, bipartisan effort helped 
rejuvenate our STEM educational and R&D obligations and placed a new 
focus on STEM as a national priority. Unfortunately, we have not been 
able to live up to many of the goals set forth under the law--
particularly in providing resources for STEM education programs, 
including many programs at the Departments of Energy and Education. The 
requisite funding did not materialize to make all these valiant 
programs and promises come true. Although some programs were funded 
either through appropriations or the Recovery Act, my concern is that 
very little was done in the K-12 STEM education space and even less was 
done for informal science education.

Engineering Education Progress since Enactment of ACA
    Despite the shortage of Federal funding, there have been a number 
of significant developments since the enactment of ACA that have helped 
advance K-12 STEM education, particularly technology and engineering 
education. (Why K-12 Engineering? See Appendix A.)
    The National Governors Association's report, ``Building a STEM 
Agenda,'' \1\ recommended that states should develop standards and 
assessments in technology and engineering as well as math and science. 
The NGA was able to provide grants to six states to build their STEM 
education infrastructure and the NCTL has served as a resource to the 
NGA Center for Best Practices in this regard working most recently with 
Ohio and Minnesota in revising their state standards to include 
engineering. The NGA is also working with the National Academies Board 
on Science Education on developing common core science standards that 
will most likely include the engineering design process.
---------------------------------------------------------------------------
    \1\ National Governors Association, Building a Science, Technology, 
Engineering and Math Agenda, February 2007, page 2.
---------------------------------------------------------------------------
    The new National Assessment of Educational Progress (NAEP aka the 
Nation's Report Card) for Science administered in 2009 \2\ measured 
student technological design skills for the first time in history. The 
results will be available this summer. The NCTL worked to insure that 
this assessment include technological design because it resides in both 
the National Science Education Standards\3\ and Benchmarks for 
Scientific Literacy.\4\ The term ``technological design'' refers to the 
process that underlies the development of all technologies, from paper 
clips to space stations. The National Science Education Standards 
explain that this meaning ``is not to be confused with `instructional 
technology,' which provides students and teachers with exciting tools--
such as computers--to conduct inquiry and to understand science.''
---------------------------------------------------------------------------
    \2\ National Assessment Governing Board, ``Science Framework for 
the 2009 NAEP,'' September 2008, pages 76-80.
    \3\ National Science Education Standards, National Research 
Council, 1996.
    \4\ Benchmarks for Scientific Literacy, American Association for 
the Advancement of Science, 1993.
---------------------------------------------------------------------------
    In 2014, NAEP will administer the first-ever, computer-based 
assessment of Technology and Engineering Literacy.\5\ Again, the NCTL 
worked to insure that engineering design be a component of this 
assessment, which was originally entitled ``NAEP Technological 
Literacy.'' This assessment will have three topical areas--use of 
information and communication technology, engineering design and 
systems thinking, and technology and its impacts on society.
---------------------------------------------------------------------------
    \5\National Assessment Governing Board, ``National Assessment of 
Educational Progress (NAEP) Technology and Engineering Literacy 
Framework and Test Item Specifications,'' www.edgateway.net/cs/naepsci/
print/docs/470.
---------------------------------------------------------------------------
    Engineering is also a key component of the Museum's informal 
educational programs and exhibits. The National Research Council 
report, ``Learning Science in Informal Environments: Places, People, 
and Pursuits,'' \6\ found that, ``tens of millions of Americans, young 
and old, choose to learn about science in informal ways--by visiting 
museums and aquariums, attending after-school programs, pursuing 
personal hobbies, and watching TV documentaries, for example.'' The 
report also notes that informal learning experiences can significantly 
improve outcomes for individuals from groups historically 
underrepresented in science.
---------------------------------------------------------------------------
    \6\ National Research Council, ``Learning Science in Informal 
Environments: Places, People, and Pursuits,'' January 2009.
---------------------------------------------------------------------------
    In 2009, the National Academy of Engineering and the National 
Research Council released, ``Engineering in K-12 Education: 
Understanding the Status and Improving Prospects,'' \7\ which found 
several potential benefits of K-12 engineering education, including 
improved learning and achievement in science and mathematics; increased 
awareness of engineering and the work of engineers; understanding of 
and the ability to engage in engineering design; and interest in 
pursuing engineering as a career; and, increased technological 
literacy. The report notes that several million K-12 students have 
experienced some formal engineering education. As of March 2010, one of 
our NCTL curricular projects, Engineering is Elementary,* has reached 
18,200 teachers and over 1.1 million students in all 50 states and the 
District of Columbia and is highlighted throughout the report.
---------------------------------------------------------------------------
    \7\ National Academy of Engineering and National Research Council, 
``Engineering in K-12 Education,'' September 2009, pages 49-62.
---------------------------------------------------------------------------
    Since the enactment of ACA, numerous universities, community 
colleges, consortia and science museums have established or expanded 
engineering education programs for pre-service and in-service K-12 
teachers.\8\ We have partnerships in 20 states including ME, NH, TX, 
OH, ND, NC, MN, NJ, PA, etc. (Appendix B)
---------------------------------------------------------------------------
    \8\ A sampling of Institutions with of pre-service and in-service 
K-12 engineering education programs: Stevens Institute of Technology, 
Virginia Tech, Purdue University, North Carolina State University, 
Valley City State University, Holyoke Community College, Fitchburg 
State College, National Center for Engineering & Technology Education, 
Museum of Science, Boston, Science Museum of Minnesota, Oregon Museum 
of Science & Industry.
---------------------------------------------------------------------------
    States are also increasingly incorporating engineering into their 
science standards and assessments, like Massachusetts, including Ohio, 
Minnesota, Oregon, Washington, and Tennessee (Appendix C).
    The professional association for technology teachers recently 
changed their organizational name to the International Technology and 
Engineering Education Association to better reflect the content of 
their instruction. This organization is also responsible for the 
development of the ``Standards for Technological Literacy,'' \9\ which 
most states have adopted, that includes the designed world and the 
engineering design process.
---------------------------------------------------------------------------
    \9\ International Technology and Engineering Education Association, 
Standards for Technological Literacy, 2000, Standard 9, page 99-105.
---------------------------------------------------------------------------
    By far, the most exciting recent development in K-12 engineering 
education is the introduction of S. 3043 on February 25, by Senators 
Gillibrand, Kaufman, Snowe, Cantwell, Klobuchar, and Murray. A 
companion bill, H.R. 4709, was introduced by Representative Paul Tonko 
on the same day. More than 100 organizations are supporting this bill, 
including Intel, IBM, and Lockheed Martin. (Appendix D)
    The Engineering Education for Innovation Act (E<SUP>2</SUP> for 
Innovation Act), based on the findings of the NAE K-12 Engineering 
report, will support K-12 engineering education and related evaluation 
research. In general, this legislation authorizes the Secretary of 
Education to competitively award planning and implementation grants for 
state educational agencies to integrate engineering education into K-12 
curriculum and instruction. It also funds the research and evaluation 
of such efforts. Specifically, the E2 for Innovation Act will enable 
states to:

  <bullet> integrate engineering education into K-12 instruction by 
        designing challenging content and curricula frameworks and 
        assessments that include engineering;

  <bullet> increase engineering and technology teacher preparation 
        programs and recruit qualified teachers to provide engineering 
        education in high-need schools;

  <bullet> increase student achievement in STEM subjects and knowledge 
        and competency in engineering design skills;

  <bullet> promote aspirations for a career in engineering among 
        diverse student populations, especially among girls and 
        underrepresented minorities;

  <bullet> invest in afterschool engineering education programs; and

  <bullet> promote partnerships among K-12 school administrators and 
        teachers and engineering professionals.

Recommendations
    Given these positive developments in K-12 engineering education and 
informal science learning, and on behalf of the Museum of Science, our 
National Center for Technological Literacy, and hundreds of like-minded 
organizations, I offer the following policy recommendations as you 
consider reauthorization of the America COMPETES Act:
    First and foremost, Congress should enact S. 3043 as part of 
America COMPETES or included as part of the STEM initiative under the 
Elementary and Secondary Education Act (ESEA). K-12 engineering 
education will catalyze the development of a highly skilled STEM 
workforce necessary to insure our global competitiveness and national 
security.
    Congress should highlight and support NASA's ability to be a leader 
among Federal agencies in K-12 and informal engineering education. As a 
member of the NASA Education and Public Outreach Committee, I am 
alarmed by all the reports that NASA will face a shortage of engineers 
in the near future due to retirements. NASA is unique in its ability to 
inspire students to pursue high-tech careers in engineering and the 
Congress should continue to make this issue a priority for the agency 
and direct programmatic support and funding accordingly.
    Congress should highlight and support NSF's commitment to Education 
and Human Resource development by providing for a balanced portfolio of 
research and development funds. The recent shift in focus to research 
has shortchanged the development of innovative interventions. The House 
COMPETES bill, H.R. 5116, includes many important provisions for 
informal science education and engineering education research. I also 
believe that broader impacts and greater public understanding can be 
achieved if grantees are directed to partner with outreach entities, 
such as informal STEM education institutions that have a proven record 
of success communicating STEM research to the general public.
    We support efforts to improve coordination among the Federal 
agencies on STEM education and the creation of a STEM advisory 
committee of relevant stakeholders including engineering education 
providers and informal STEM education institutions.
    We urge Congress to support the President's proposed RE-ENERGYSE--
Regaining our Energy Science and Engineering Edge--initiative at the 
Department of Energy that includes K-12 and informal educational 
components to promote and support innovative approaches to foster 
sustainability and energy literacy.
    Finally, the Museum is also concerned with public education 
concerning new technologies and in public engagement with science and 
technology policy. The Museum has joined forces with the Science and 
Technology Innovation Program at the Wilson Center, the Consortium of 
Science, Policy, and Outcomes at Arizona State University, Science 
Cheerleader, and the Loka Institute to create a nationwide network to 
conduct Expert & Citizen Assessment of Science & Technology (ECAST). 
The ECAST network will combine the skills of nonpartisan policy 
research organizations with the research strengths of universities and 
the public outreach and education capabilities of science museums. By 
educating and engaging laypeople, participatory technology assessment 
enables decision-makers to learn of their constituents' informed views 
regarding emerging developments in science and technology. We urge 
Congress to support OSTP and GAO in efforts to support ECAST and engage 
the public in discourse about STEM-related policy issues.
    Again, I thank the Chairman for the invitation to participate in 
this hearing and the Committee members for their attention to this 
issue of American competitiveness and K-12 engineering education. I 
look forward to working with this Committee, the Congress and this 
Administration in advancing an innovative U.S. workforce. Please let me 
know if you have questions or need additional information.
                                 ______
                                 
                   Appendix A. Why K-12 Engineering?

1. Technological Literacy is Basic Literacy
    How can one claim to be literate if she does not understand how 95 
percent of her environment works, or how it was made? Understanding how 
an engineer designs is just as important as understanding how a 
scientist thinks.

2. Engineering Promotes Problem Solving and Project-Based Learning
    The Engineering Design Process starts by identifying a need or a 
problem. It follows an organized path to arrive at one or more 
solutions that satisfy the need or solve the problem. Problem solving 
skills are far more valuable than many of the other skills that are the 
focus of our K-12 educational systems.

3. Engineering Makes Math and Science Relevant
    Engineering makes math and science relevant which is critical in 
the middle school and high school years. Relevance is particularly 
important for retention of girls in science fields. Girls gravitate 
toward science disciplines that have an evident benefit to society. 
Half of the medical school students are women, and women comprise the 
majority of students in the life sciences. In some highly competitive 
veterinary schools, more than 80 percent of the students are female. 
Ability is clearly not the limiting factor. Engineering in K-12 can 
make science relevant and improve student interest, especially among 
girls.

4. Engineering as a Career
    In order to preserve the innovation culture in the U.S., numerous 
committees have issued reports calling for an increase in support of K-
12 mathematics and science education. What these reports have missed is 
that the connector between math, science, and innovation is 
engineering. We also know that a majority of existing engineers where 
inspired to pursue engineering by a family member. If we want to 
diversify this workforce of predominantly white men, we cannot rely on 
them alone to expose and inspire the next generation of engineers. We 
cannot expect more high school students to enroll of engineering if 
they have never heard of it before. To broaden and diversify this 
pipeline or pathway into engineering, we must expose all students to 
engineering, starting in the very early grades, before they are able to 
opt out of an engineering or STEM career pathway. Unless this 
connection is made in school, the number, gender, and race of future 
engineers will continue to fall short of current and future demands.

5. Navigating in a Three-Dimensional World
    We live in a three dimensional world and we should be able to 
conceptualize it as such. At times we all have to imagine and sometimes 
sketch things in three dimensions for considering optimal designs, for 
example when we redesign a kitchen or set up a warehouse. Children now 
spend most of their discretionary time in front of 2-D screens, 
televisions, video games, laptops, MP3 players, and mobile phones. 
Building, tinkering, and other 3-D activities that previously engaged 
mostly boys are no longer the preferred pastime. We have started 
creating generations of people that will not be able to visualize and 
design in three dimensions. This will not only affect the abilities of 
future engineers, designers, and architects, but also deprive people 
from a basic life skill. By introducing engineering in K-12 schools we 
will remediate this issue for both boys and girls.

            Appendix B. NCTL Partnerships and Collaborations

Formal Educational Partnerships
    BEST--Building Engineering and Scientific Talent
    National Defense Education Program, U.S. Department of Defense
    Maine Mathematics and Science Alliance
    Minnesota Department of Education
    New Hampshire Department of Education
    Stevens Institute of Technology, NJ
    Transformation 2013, TX
    Valley State City University, ND
    Villanova University College of Engineering, PA
Educational Collaborations

Aldine Independent School District, TX
Bristol Community College, MA
Charles Dana Center, TX
Education Service Center (ESC) Region 1--Edinburg, TX
ESC Region 3--Victoria, TX
ESC Region 4--Houston, TX
ESC Region 9--Wichita Falls, TX
ESC Region 11--Fort Worth, TX
ESC Region 12--Waco, TX
ESC Region 16--Amarillo, TX
ESC Region 18--Midland, TX
Falcon School District #49, CO
Georgia Department of Education
Hofstra University, NY
Holyoke Community College, MA
Long Beach Unified School District, CA
Massachusetts Department of Elementary and Secondary Education, MA
Minorities in Mathematics, Science, and Engineering, OH
Mobile Area Education Foundation, AL
Montgomery County ESC--Dayton, OH
National Governors Association, Center for Best Practices
North Carolina State University, NC
Northern Essex Community College, MA
North Central Texas College, TX
Ohio Department of Education, OH
Oregon Museum of Science and Industry, OR
Oregon State University, OR
Pennsylvania Department of Education, PA
Purdue University, IN
Putnam County Education Service Center, OH
Sally Ride Academy, WI
Science and Math on the Move Center, OH
Science Museum of Minnesota, MN
Stark County Education Service Center, OH
Texarkana ISD, TX
Towson University, MD
Tufts University, MA
University of Louisville, KY
University of Maryland Baltimore County, MD
University of Alabama, Huntsville, AL
University of Cincinnati, OH
University of Texas--Austin
Vermont Department of Education, VT
Wichita Falls ISD, TX
Worcester Polytechnic Institute, MA

            Appendix C. State Engineering Standards Snapshot

Massachusetts
    In 2000, Massachusetts became the first state in the Nation to 
develop and adopt Science and Technology/Engineering standards and 
subsequently implemented a statewide assessment which measures 
technology/engineering knowledge and skills. Technology/Engineering is 
considered a core science content area.

Vermont
    In 2000, Vermont standards included a strand entitled Science, 
Mathematics, and Technology, which focuses on design and technology, an 
integral part of engineering.

New Jersey
    In 2004, New Jersey adopted New Jersey Core Curriculum Content 
Standards for Technological Literacy. Standard 8.2 states that all 
students will develop an understanding of the nature and impact of 
technology, engineering, technological design, and the designed world 
as they relate to the individual, society, and the environment.

Maryland
    In 2005, Maryland adopted the Voluntary State Curriculum (VSC) that 
identifies five overarching themes in Technology Education: the Nature 
of Technology; the Impacts of Technology; Engineering Design and 
Development; Core Technologies; and, the Designed World. Maryland 
differentiates Technology Education from Technology Literacy for 
Students (computer literacy skills).

New Hampshire
    In 2006, the NH Department of Education recognized the importance 
of ``enabling our children to understand how humans modify the natural 
world to solve problems and to meet human needs and desires is equally 
as important as teaching them how to inquire about the natural world,'' 
and modified their curriculum framework to include design technology.

Texas
    In 2007, the Texas legislature enacted a requirement for 4 years of 
high school science; engineering is a considered an eligible science 
course. Since Spring 2008, writing teams have been working to review 
the current Texas Essential Knowledge & Skills (TEKS) and make 
recommendations for revisions. One of the clusters is Science, 
Technology, Engineering and Mathematics

Tennessee
    In 2007, Tennessee revised their state K-8 science standards by 
embedding both inquiry and technology and engineering design. For 
example, in grade four, students should be able to: describe how tools, 
technology, and inventions help to answer questions and solve problems; 
recognize that new tools, technology, and inventions are always being 
developed; identify appropriate materials, tools, and machines that can 
extend or enhance the ability to solve a specified problem; and, 
recognize the connection between scientific advances, new knowledge, 
and the availability of new tools and technologies.

Oregon
    In 2009, the Oregon Department of Education that revised their 
state science standard into four core strands: Standard I, Structure 
and Function, and II, Interaction and Change, describe the big ideas in 
the three science disciplines of physical, life, and Earth and space. 
Standard III, Scientific Inquiry, and IV, Engineering Design, describe 
the science process skills and understandings that characterize the 
nature and practice of science and engineering design. These process 
standards are intended to be interwoven with content in the three 
science disciplines.

National Governors Association STEM Grant States
    In 2007, NGA awarded six states: Colorado, Hawaii, Minnesota, Ohio, 
Pennsylvania and Virginia $500,000 matching grants to establish 
science, technology, engineering and mathematics (STEM) education 
centers in their states. The grants are helping states create new or 
repurpose existing STEM centers. The centers will serve as the 
foundation for an improved workforce by:

  <bullet> Aligning K-12 STEM education requirements with post-
        secondary and workplace expectations;

  <bullet> Improving the quantity and quality of STEM teachers;

  <bullet> Benchmarking state K-12 STEM standards, assessments and 
        curricula to top performing nations in STEM education 
        achievement and attainment;

  <bullet> Garnering public will for change to implement a better 
        aligned system; and

  <bullet> Identifying best practices in STEM education and bringing 
        them to scale.

     Appendix D. Organizations that Support S. 3043/H.R. 4709, the 
 Engineering Education for Innovation Act (E<SUP>2</SUP>) (as of 11/17/
                                 2010)

    Quote from Norm Augustine, former CEO, Lockheed Martin Corporation, 
and Gathering Storm report committee member.

    ``One of the many reasons our Nation does not seem to attract young 
people into engineering is that many seem to have no idea what an 
engineer does. Although we attempt to teach math and science in K-12, 
seldom do we expose students to engineering. Congratulations on this 
fine effort (to introduce K-12 engineering legislation) . . . I believe 
it is well aimed.''

    1. Alabama Mathematics, Science, and Technology Education Coalition 
(AMSTEC)

    2. American Chemical Society

    3. American Society for Engineering Education

    4. American Society of Civil Engineers

    5. American Society of Heating, Refrigerating and Air-Conditioning 
Engineers, Inc.

    6. Arc Capital Development

    7. ASME Center for Public Awareness

    8. Association of Science and Technology Centers

    9. Bechtel Power Corporation

    10. BEST Robotics, Auburn University

    11. Center for Innovation in Engineering and Science Education, 
Stevens Institute of Technology

    12. Center for Mathematics and Science Education, Teaching and 
Technology at John Carroll University

    13. Center for Mathematics, Science, and Technology

    14. Center for Minority Achievement in Science and Technology

    15. Center for the Advancement of STEM Education

    16. Chicago Educational Publishing Company

    17. Colorado Technology Education Association

    18. Consortium for School Networking

    19. Cuyahoga Falls High School Technology Education Department

    20. Delaware Foundation for Science and Mathematics Education

    21. Depco, LLC, Pittsburg, KS

    22. East Central Ohio Technology Education Association

    23. Eastwood Middle School Career Cluster Technologies, AL

    24. Engineering & Technology Educators of Indiana

    25. Hockaday School

    26. Hofstra University Center for Technological Literacy

    27. IBM Corporation

    28. IEEE-USA

    29. Illinois Mathematics and Science Academy

    30. Illinois State University, Center for Mathematics, Science, & 
Technology

    31. INSPIRE, Institute for P-12 Engineering Research and Learning, 
Purdue University

    32. Intel Corporation

    33. International Technology and Engineering Education Association

    34. International Technology and Engineering Education Association/
Council for Supervision and Leadership

    35. JETS

    36. Kentucky Engineering & Technology Education Association

    37. Learning Institute for Technology Education, MI

    38. LearnOnLine, Inc.

    39. Lockheed Martin Corporation

    40. Massachusetts Technology/Engineering Education Collaborative

    41. MassTEC

    42. Museum of Science, Boston

    43. National Alliance for Partnerships in Equity

    44. National Association of State Directors of Career Technical 
Education Consortium

    45. National Center for Technological Literacy

    46. National Council of Teachers of Mathematics

    47. National Girls Collaborative Project

    48. National Institute of Building Sciences

    49. National Middle Level Science Teachers Association

    50. National Science Education Leadership Association

    51. National Science Teachers Association

    52. National Society of Black Engineers

    53. National Society of Professional Engineers

    54. New Jersey Technology Education Association

    55. New York Hall of Science

    56. New York State STEM Education Collaborative

    57. New York State Technology Education Association

    58. North Carolina Technology Education Association

    59. North Dakota State University's College of Engineering and 
Architecture

    60. North East Ohio Technology & Engineering Educators Association

    61. Ohio Engineering Deans' Council

    62. Ohio Northern University

    63. Ohio Technology and Engineering Educators Association

    64. Ohio Technology Education Advisory Council

    65. Ohio Technology Education Association

    66. Pathways into Science

    67. Pennsylvania Technology Student Association

    68. Project Lead the Way

    69. PTC

    70. PTC-MIT Consortium

    71. Real World Design Challenge

    72. Rensselaer Polytechnic Institute, School of Engineering

    73. Science Museum of Minnesota

    74. Skillpoint Alliance

    75. Sloan Career Cornerstone Center

    76. Society of Women Engineers

    77. South Carolina's Coalition for Mathematics & Science

    78. Stevens Institute of Technology, Center for Innovation in 
Engineering and Science Education, NJ

    79. Teachers Clearinghouse for Science and Society Education

    80. Technology Education Association of Maryland

    81. Technology Education Association of Pennsylvania

    82. Technology Education Department at Cuyahoga Falls High School, 
OH

    83. Technology Is Elementary

    84. The CAD Academy

    85. The Engineering Place at North Carolina State University

    86. The Learning Institute for Technology Education

    87. The Ohio Academy of Science

    88. The Pittsburgh Regional Center for Science Teachers

    89. The STEM Academy

    90. The Teachers Clearinghouse for Science and Society Education

    91. Triangle Coalition

    92. Tuscaloosa City Schools, Career Cluster

    93. Tuscaloosa Magnet Middle School

    94. University of California

    95. University of Pittsburgh at Johnstown

    96. Urban STEM Strategy Group, Philadelphia

    97. Valley City State University, ND

    98. Vernier Software & Technology

    99. Western Illinois University College of Business and Technology

    100. Western Illinois University School of Engineering

    101. Wisconsin Science Network

    102. Wisconsin Technology & Engineering Education Association

    103. Worcester Polytechnic Institute, K-12 Outreach Office

    The Chairman. Thank you, sir.
    Mr. Luce.

 STATEMENT OF TOM LUCE, CHIEF EXECUTIVE OFFICER, NATIONAL MATH 
                     AND SCIENCE INITIATIVE

    Mr. Luce. Senator, and my home Senator, Senator Hutchison, 
and all members of the Senate, thank you so much for the 
opportunity to be here.
    I want to emphasize several things. One, the National Math 
and Science Initiative is a unique organization, in that it was 
funded and started by the private sector to get the private 
sector to help support implementation of the America COMPETES 
Act. Private sector said, ``What you did is important.'' 
ExxonMobil, the Gates Foundation, the Dell Foundation funded us 
with $140 million and said, ``Go forth and try to make work 
what is in the America COMPETES Act, with private funding.'' 
That's what we've done. We took two recommendations from your 
programs that were in Rising Above the Gathering Storm, UTeach, 
and the Advanced Placement Incentive and Training Program, and 
we've spread those to 15 states with private funding.
    The Advanced Placement Incentive and Training Program 
encourages high school students to take and pass advanced 
placement math and science and English courses. It does that by 
professional development to the existing teacher corps, just as 
Ms. Naylor talked about.
    Number two, giving incentives to teachers and students to 
achieve passing those tests and scores. In the first year of 
operation in six States, we produced a 52-percent increase in 
the number of students taking and passing advanced placement 
math, science, and English courses. Fifty-two percent in one 
year.
    Second of all, we're implementing the UTeach Program across 
the country. As Senator Hutchison said, it started at one 
university. We now have that program in 23 universities across 
the country. Now, what's relevant to reauthorization is, we 
have a huge waiting list. The private sector has invested $200 
million. We urge you to invest alongside with the private 
sector to replicate these two programs.
    The UTeach Program, as Senator Hutchison knows, takes 
entering college freshmen. They enter the College of Natural 
Sciences and Math. They get the same B.S. and that any other 
student does at the university. And they graduate in 4 years 
with a content degree in math, science, engineering, 
technology, and a teaching certificate. Now, the data shows--
this program's been in existence 13 years--92 percent of the 
students who enter that program go into teaching. Number two, 
82 percent are still teaching, 5 years later. Why? Because 
they've been trained in content knowledge. They can make a 
youngster's eyes light up. They know the content they're 
teaching. So, despite all the problems of teacher pay and 
working conditions, teachers are achieving wonderful results 
when they get the training that Ms. Naylor is talking about.
    We, in the private sector, have done this in 23 
universities, and we have 40 universities who have said, 
``We'll implement this program if you'll help us.'' We're doing 
this for an investment of $2.5 million per university over 5 
years. And we will be producing 10,000 math and science 
teachers within the next 3 years.
    There's no reason we can't do this across the country. In 
one fell swoop--$2.5 million times 50 universities on a waiting 
list--we could train the next generation of math and science 
teachers, just the way you all wanted it done. But, we need 
some help. We have a waiting list. We're ready to go.
    What we also need this committee to consider is when you 
reauthorize America COMPETES, let nonprofit entities, such as 
the National Math and Science Initiative, compete for the 
grants so that we can be the implementation arm to ensure 
faithful replication of these programs, and enforce 
accountability to ensure the university implements the program 
faithfully and does what's called for in the grant.
    We can raise matching funds, but we need the Federal 
Government to step up. We say this is a national issue. Well, 
we need the Federal Government to help. States are investing in 
this program. The private sector's investing in this program. 
But, we need to the help of the Federal Government.
    You all have been leaders in making us more competitive. 
What I feel very strongly about, the true stimulus program for 
this country is competitiveness. We can deal with short-term 
problems from now until doomsday, and if we don't increase our 
competitiveness, then we'll never begin to get all the jobs 
that we need in this country.
    So, we thank you for your leadership on this issue. We 
stand ready. Our whole organization is predicated upon 
implementing what's in ``Rising Above the Gathering Storm.'' We 
were formed by four members of the ``Rising Above the Gathering 
Storm'' advisory panel. Our mission is to ensure that you 
succeed. And we appreciate your leadership very, very much.
    [The prepared statement of Mr. Luce follows:]

       Prepared Statement of Tom Luce, Chief Executive Officer, 
                  National Math and Science Initiative

Importance of Science, Technology, Engineering, and Math (STEM)
    STEM fields offer the fastest growing and highest paying jobs in 
our economy. More than 50 percent of the fastest growing jobs in the 
United States are in STEM fields \1\ and the science and engineering 
workforce has shown sustained growth for over a century. STEM jobs 
continue to grow much faster than the rest of the U.S. workforce \2\ 
and workers with science and engineering degrees earn more than 
comparable workers.\3\ These statistics illustrate that math and 
science education is absolutely critical to ensuring the country's 
economic prosperity. Math and science are creating a pipeline for more 
competitive workers and providing opportunity for future generations.
---------------------------------------------------------------------------
    \1\ U.S. Department of Labor, Bureau of Labor Statistics, 
Occupational Outlook Handbook, 2008-09 Edition.
    \2\ National Science Board, Science and Engineering Indicators 
2010.
    \3\ National Science Board, Science and Engineering Indicators 2010
---------------------------------------------------------------------------
    Currently, students in the U.S. perform below students from other 
industrialized countries in math and science. In a report issued by the 
Organization for Economic Cooperation and Development (OECD), the U.S. 
was classified as ``statistically below OECD average'' in both science 
knowledge and mathematics on the 2006 PISA survey. Just as troubling, 
according to the Bureau of Labor Statistics, a mere 5 percent of U.S. 
college students graduate from college in math and science fields, 
compared to 42 percent in China.

Making STEM Education Work
    To close this gap, we must scale what works. For years, we've been 
pursuing pilot program after pilot program, but we have yet to make a 
lasting difference. Scaling effective, proven programs is the only way 
we will change an education system with over 50 million schoolchildren.
    The Federal Government can play a key role in this improvement of 
STEM education by identifying what works and providing incentives to 
scale those interventions at a national level. Congress and the 
Administration can also take several other steps to facilitate this 
change.

        1. Congress should continue holding schools accountable for 
        math and science by including accountability provisions in 
        these subjects in any reauthorized version of the law.

        2. Congress should work with the National Science Foundation 
        (NSF) to more aggressively pursue education reform and provide 
        support for states in implementing STEM strategies. Most 
        importantly, Congress should work to provide an avenue for NSF 
        to scale its most promising investments. This will ensure that 
        the important work funded by NSF will be replicated and 
        expanded to make a lasting difference in STEM education.

        3. The Federal Government should provide priority points for 
        STEM in all competitive education programs.

        4. Congress should fund expansion of programs that work, such 
        as the UTeach Program and the Advanced Placement Training and 
        Incentive Program.

Scaling Works--Specific Examples of Success
    The National Math and Science Initiative (NMSI) was launched in 
2007 by top leaders in business, education, and science to reverse the 
troubling decline in American math and science education. NMSI is 
dedicated to dramatically impacting the U.S. public school system by 
replicating programs nationally that have documented success in math 
and science education. Inaugural funding for NMSI was provided by the 
Exxon Mobil Corporation, the Bill & Melinda Gates Foundation, and the 
Michael & Susan Dell Foundation.
    According to the Business-Higher Education Forum, there will be a 
shortfall of more than 280,000 highly qualified math and science 
teachers by 2015. It is clear that talented math and science teachers 
with strong content knowledge are urgently needed in classrooms across 
the country to help our students reach their full potential. To address 
this urgent need, NMSI identified two initial programs to scale 
nationwide: the UTeach Program and the Advanced Placement Training and 
Incentive Program.
    The UTeach Program transforms the way universities prepare math and 
science teachers. Developed at The University of Texas at Austin in 
1997 to change the way colleges and universities recruit, prepare, and 
inspire new math and science teachers, this highly effective program 
recruits math and science undergraduate majors to pursue a teaching 
career. UTeach graduates enter teaching at much higher rates than 
regular College of Education teachers and stay in teaching at much 
higher rates than the national average. In fact, 92 percent of UTeach 
graduates become teachers, and 82 percent are still in the classroom 
after 5 years.
    In 2006, The University of Texas Austin had 450 students enrolled 
in its UTeach Program. In 2007, NMSI partnered with the UTeach 
Institute and led an aggressive, intentional scaling effort funded by 
the private sector to expand the UTeach Program to additional 
universities. By 2009, UTeach was expanded to 13 campuses and had over 
2,600 students enrolled in the program across the country. This year, 
NMSI and the UTeach Institute were able to add a second cohort, 
bringing the UTeach Program to a total of 22 campuses this fall. The 22 
universities replicating UTeach will prepare over 4,500 math and 
science teachers by 2015 and 7,000 by 2018. These new STEM teachers 
will have an impact on more than 20 million students over the course of 
their teaching careers.
    However, more can be done. There is incredible demand and high 
growth potential for the program. In 2007, NMSI had 52 universities 
apply to replicate the UTeach Program and was only able to fund 13 
sites. We've raised money to expand the program to additional campuses, 
but demand continues to increase. Currently, over 50 Association of 
Public and Land Grant Universities have committed to doubling their 
STEM teacher preparation production. Three state university systems 
have pledged to bring STEM teacher preparation reform to their state 
systems: the California University System, California State University 
System, and the Maryland system. Most of these universities still need 
the tools to help them meet the goal of bringing programs like UTeach 
to their campuses.
    A program to fund the replication of the successful UTeach Program 
was authorized under the 2007 America COMPETES legislation, but was not 
funded. That program, Teachers for a Competitive Tomorrow, needs to be 
funded. The Federal Government has the unique opportunity to leverage 
the investments already made by the private sector to expand access to 
even more universities. The private sector has responded, the 
universities have responded, the students are willing--what is urgently 
needed now is Federal funding to make much more progress possible.
    The other successful program NMSI has worked to bring to scale is 
the Advanced Placement Training and Incentive Program (APTIP). This 
program impacts the existing teacher corps by providing training to AP 
teachers and provides immediate opportunity for high school students to 
master college level work. APTIP increases teacher effectiveness and 
student achievement through a multi-faceted, comprehensive approach 
that includes: training, teacher and student support, vertical teaming, 
open enrollment, and incentives. Expanding Advanced Placement courses 
is a matter of equity, equal access, and equal opportunity for all 
students. APTIP empowers high-need, underrepresented students to 
succeed in rigorous math and science courses. This change transforms 
expectations for students and significantly improves college-readiness.
    In 2007, APTIP was only available in Texas. Since 2007, NMSI has 
scaled it to six additional states: Alabama, Arkansas, Connecticut, 
Kentucky, Massachusetts, and Virginia. We have impacted more than 
30,000 students and trained over 1,000 teachers. In NMSI's first school 
year (2008-09), NMSI schools had a 52 percent increase in AP exams 
passed in math, science, and English, which is over 9 times the 
national average. At the same time, NMSI schools showed a 71.5 percent 
increase in AP exams passed by African American and Hispanic students 
in math, science, and English. These results show that expanding this 
proven program could help reduce the minority achievement gap in our 
country.
    But more can be done. With additional resources to leverage the 
private investments in the success of these programs, NMSI will be able 
to bring the benefits to thousands of more students nationwide.
    It is this kind of systemic change that will increase the quality 
and quantity of our STEM graduates and ensure that the U.S. economy 
will thrive in the 21st century.

    The Chairman. Thank you, sir.
    I'll start the questioning.
    This is directed to nobody in particular. It seems to me 
that a couple of issues have arisen. You're talking about 
universities. Susan Naylor's talking about up to that point. 
Now, if you're going to take engineering or if you're going to 
take technology or if you can take science and math--obviously 
science and math have an easier shot--you've got to deal with 
the boards of education. It's sort of my general impression 
that boards of education always have a superintendent of 
schools. So, it comes down to who decides what actually gets 
taught. There's a political tinge to that position, depending 
upon who the Governor might be. I don't like to say that, but I 
think there's some truth to it.
    So, if you consider the influence of the boards of 
education or the superintendent of schools in allocating time 
and what can be taught, how are you bound, in secondary 
schools, so to speak, to follow his instructions? Can you 
deviate?
    Second, when one goes to college, one's thinking about, 
``What do I want to be? What do I really want to be?'' You're 
sort of getting into the preprofessional mode, already, in your 
thinking. That is not true, Ms. Naylor, in your case. Kids are 
just malleable. They're subject to really, really good 
teaching. But, that doesn't mean that they can influence the 
board of education, or that they are thinking about their 
professions, and therefore, particularly for technology and 
engineering, there has to be an ingredient in there, either 
excellent teaching or something which touches their futures, 
which I would think would be very hard to make happen.
    Ms. Naylor. The common core standards that have just--are 
being adopted, I think, by 48 states right now, are going to 
provide some consistency, in terms of standards in math and 
science--well, all curricular areas. And I am impressed by this 
effort, because our children are becoming so mobile, and 
they're moving from State to State much easier than they did 50 
years ago. With the common core standards, it's going to give a 
benchmark for everyone that's consistent. And textbooks, 
instead of having to devise 50 different versions of their 
textbook to meet 50 different versions of standards in each 
State, can start addressing one common core standard and 
embedding more professional development.
    I have another thought, but I'll add it later.
    The Chairman. Please.
    Mr. Luce. Well, I would also add to that, as we increase 
interest and we want to encourage youngsters to go into STEM, 
the teachers have to be prepared to teach those students. And 
we need to give them the higher-level courses. What is tragic, 
to me, is that our data shows if a youngster--if an African 
American youngster takes and passes an AP course in math or 
science, instead of 15 percent of African Americans graduating 
from college, 65 percent will. If it's a Latino, it goes from 
15 to plus-60. That means higher-standard courses. And too many 
schools do not have higher-standard courses. And you can't keep 
that youngster interested if they're not challenged.
    So, I think what we really must do is continue to work on 
the existing teacher core with the professional development Ms. 
Naylor talks about.
    The Chairman. In my final minute, I want to ask about 
secondary level education. I think we emphasize too much sports 
in America. I think sports take away a lot from academic 
capacity. It's sort of like girls and boys getting interested 
in each other. Well, everybody gets interested in sports, and 
math teachers are also football coaches, and I don't think 
that's a really sensational idea. So, my question is, when you 
get your claws into a student's mind and you've turned them on 
and they really want to learn, how can you sustain that? 
Because, they go from you to another teacher and then to 
another level, and eventually end up at university, where they 
certainly do become preprofessional in their thinking. I 
remember the great teachers in my life; never forget them. But, 
it's a hard thing to sustain interest in something like 
technology or engineering, I would think, simply from a great 
teacher at the high school level or the junior high school 
level, because--isn't it hard for them to know where they're 
taking this?
    Ms. Naylor. There is a lot of peer pressure on kids to go 
into sports. And I think a lot of parents are pressuring kids 
into sports because they see scholarships and ways to college 
behind those sports.
    I like the idea that--I was talking to the gentleman to my 
left before the meeting. He was talking about providing after-
school experiences in science and mathematics. There are a lot 
of children that stay after school, from 3 until 5 o'clock, in, 
generally, recess atmospheres, until their parents can come 
pick them up. If we could integrate math and science activities 
for them during that time when they are still at school, that 
would be an excellent opportunity to continue that spark that 
hopefully got ignited in their classroom.
    Mr. Zaslav. One encouraging thing that we see at Discovery 
is--you talk about sports--on many nights, ESPN is not the 
number-one network in America for kids, 12 to 22; Discovery is. 
And Discovery is about satisfying curiosity. And at the heart, 
with all of the activity, there is a real drive to learn, we 
believe.
    That's why we launched--in addition to Discovery, the 
Science Channel and we're investing a significant amount of 
resources in this idea of satisfying curiosity with quality 
content. And then we take it into the schools. But, it's driven 
by this idea that it isn't just sports, that, for men and 
women, satisfying curiosity--science, the principles around 
STEM--are core and very interesting to people.
    The Chairman. That's an entirely hopeful statement. I'm 
very glad you made it.
    Senator Hutchison.
    Senator Hutchison. Well, thank you all very much. I think 
this has been a wonderful hearing, already.
    Let me ask Mr. Luce. The program UTeach, that I think is so 
important, and which I do want to expand in our 
reauthorization--it has been around for over a decade. Have you 
been able--or, have we been able to obtain information on 
improvements in student performance? And, also, the increase in 
numbers of students who have had STEM teachers going into the 
STEM college courses, have you been able to get any more 
information that will show success from that?
    Mr. Luce. Not yet, is the unfortunate answer, given the 
condition of longitudinal data systems in States. However, to 
every grantee to which we gave a grant, we're in the--they had 
to agree to supply that data to us. So----
    Senator Hutchison. So----
    Mr. Luce.--5 years from now, I'll be able to answer your 
question.
    Senator Hutchison.--what would your suggestion be on the 
things that we must do in the reauthorization that would be an 
improvement, other than what you said earlier in your 
testimony?
    Mr. Luce. I think, in addition to the nonprofit issue, 
which I think is very important, because a lot of universities 
will say they're doing the UTeach program, but they don't 
follow the essential elements of the program, which are very 
important.
    But, second of all, we have learned, the Department, 
unfortunately, has interpreted, often, some of the grants that 
you have authorized as requiring that grants be used to 
transform the entire school of education and the way all 
teachers are trained. Well, we're focused on one slice, which 
is STEM, which is to train those teachers in a different way, 
which is to get math and science content. So, making it clear 
that funds can be used just to change the way we train STEM 
teachers would be a very important aspect.
    When we're giving a grant of only $2 million, and they say, 
``We want you to transform the entire college of education,'' 
you can't do that. We can transform the way we train STEM 
teachers.
    Senator Hutchison. Thank you.
    Mr. Zaslav, I do want to commend you on the Discovery 
Channel. I have an 8-year-old and a 9-year-old, and there are 
two channels that they will go to, besides Cartoon Network. One 
is Discovery and one is Disney. Of course, Discovery is the one 
I encourage, but it's--getting them off Cartoon Network is a 
feat. But, you can do it, and you have been able to show that 
learning can be fun. And that's a real feat.
    Let me ask you how you would address, on your channel, even 
more capability to expand on what we're trying to do, which is 
interest the young people at the earliest levels, so that they 
take the prerequisites in high school, which is one of the big 
problems we have. If we start in high school, it's too late to 
get the prerequisites to go into engineering, for instance. And 
so, what else do you have on your agenda that might dovetail in 
and even, maybe, be part of what Ms. Naylor was mentioning, 
which was after- school programs that could be more educational 
than the atmosphere that you described, which I think is 
absolutely prevalent in the after-school programming that I 
have seen?
    Mr. Zaslav. Thank you so much, Senator Hutchison.
    One of the things that we've done is, invested in bringing 
our content and STEM-appropriate content into the classrooms. 
We're the number-one provider of digital content into 
classrooms around America. So, 90 percent of the classrooms 
that can receive digital content receive it from us. So, we've 
invested in bringing our content into the classroom.
    Philosophically, it's based on a belief system that 
textbooks alone are not the way this new generation learns. And 
so, we're looking at, how kids consume content? And how do we 
give teachers content in that format? So, whether we put it in 
video, whether it goes on the web, whether it goes on an iPod. 
That's the first thing we do.
    The bigger initiative that we have is the Science Channel, 
which is in over 60 million homes today. There are almost 100 
million homes in America. So, everyone that has a digital box 
in America could have access to the Science Channel. Our hope 
is that the Science Channel be available to every child in 
America.
    We're making available 1 hour of commercial-free 
programming that we're going to produce that pushes the STEM 
initiative directly. And then we will make that content 
available free in schools.
    We're asking the cable operators for no additional fees to 
make it available to all students, so that every student that 
comes home from school will be able to go to the Science 
Channel and see STEM-related content. That is our mission.
    Senator Hutchison. That's great.
    Thank you so much.
    Dr. Miaoulis. Senator, could I follow up on this?
    Senator Hutchison. Sure. Sure.
    Dr. Miaoulis. I think it has to be----
    Senator Hutchison. The Chairman is turned around. Go right 
ahead.
    Dr. Miaoulis. Is it OK?
    Senator Hutchison. Yes.
    Dr. Miaoulis. I think it has to be a comprehensive 
approach, and television can play a huge role in that. However, 
the problem we have in the United States is that--72 percent of 
engineers have had a relative that's an engineer--simply 
because kids don't know what engineering is. They think 
engineers drive trains, repair TVs. They have no idea what 
engineering is. So, TV can be very helpful. Discovery Channel 
is an exception, though. The only engineering hero in a network 
TV, prime time, is Homer Simpson right now--the cartoon 
character. So, that's the image of engineering.
    Also, engineering has to be a discipline in schools, so 
kids learn it from very early on, so every kid, regardless of 
their family background in engineering, knows what it is, gets 
excited through TV; science centers play a huge role in that; 
and then learning it at school in a formal way.
    The Chairman. Thank you very much.
    And now Senator Begich, to be followed by Senator Klobuchar 
and Senator Thune. Thune's gone, so--and Pryor's gone.

                STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. Thank you very much, Mr. Chairman.
    And thank you all for being here.
    I come from a family of educators. Both of my parents were 
educators. My sisters are educators, my sister-in-law is an 
educator. I chaired the Postsecondary Education Commission for 
Alaska for 7 years. So, education is really a part of our 
family.
    And I have to tell you, STEM is an incredible program. I 
was at last week's STEM and National Lab Day kickoff, which is 
a great combination, as well as, kind of, the additional piece 
they added, which was the arts, to it, which I thought was a 
very interesting--they actually said they should rename it to 
STEAM and put ``Arts'' in the middle of it. I'd be interested 
in your comment on that. But, I'll hold that for a second.
    Let me, if I can--is it Mr. Zaslav?
    Mr. Zaslav. Yes.
    Senator Begich. Did I say that right? I have a--curious--
just like Senator Hutchison, I have a 7-year-old son--your HEAD 
RUSH, or your 1 hour of commercial-free time--when you offer 
that, when will you offer that? In other words, what time of 
the day will you offer that?
    Mr. Zaslav. It'll be from 4 o'clock to 5 o'clock.
    Senator Begich. OK, So in peak time----
    Mr. Zaslav. Right.
    Senator Begich.--for our kids.
    Mr. Zaslav. And we've spent some time out in Hollywood. We 
went and got Steven Spielberg, who's very interested in 
science, and he has agreed to be involved, pro bono. His big 
push is that he doesn't want to produce content so that only 
two-thirds of America can see it, but the poorest Americans 
can't. He has been working with us on trying to get the 
distributors to make it available to all--everyone in America.
    Senator Begich. That's great. I'm a great believer in your 
channel, and my son is--I mean, he's doing--an old computer I 
gave him had QuickBooks on it, so he can write invoices, and 
he'll make you up some checks and business cards and all kinds 
of things. So, he's well-versed in that, and he built a lot of 
things. And so, I think your channel is a really good channel.
    Let me, if I can, to the rest of the group, and however--
whoever want to respond to this. You know, in Alaska, it's a 
very rural state. And being able to, one, get curriculum out 
into the State, but also to get teachers trained in rural 
Alaska--I want to emphasize that; it's much different than 
rural Texas or rural West Virginia, where, if you decide to 
move, you just get in a car and drive down the street and 
you're in another town or in another school district. That's 
not the case. Some of our school districts are as big as three 
or four states, combined, in the sense of its size and 
geographic location.
    So, I have a two-part. One is, How do you ensure that you 
can deliver--and ideas you might have on delivering education 
training in STEM to teachers for rural schools, but also 
recognizing there's also a cultural component of science. And 
in our state--and I've just--my staff gave me a great book, to 
display over here in the Smithsonian Institute, on science in 
the Yupik nation, or Yupik people. How do you meld that so it's 
relative to the folks within, for example, my State in certain 
communities in rural--I don't--Mr. Luce, if you wanted to, or 
anyone else wants to jump in.
    Mr. Luce. Well, I will respond by saying we're doing the 
Advanced Placement Incentive and Training Program virtually in 
South Dakota to rural districts. And in just 4 months, we were 
able to sign up a student from 55 percent of the school 
districts in South Dakota who took the course virtually. And I 
think we have to get to the point where we're doing that. That 
enables you, particularly in rural areas that don't have a 
physics teacher, don't----
    Senator Begich. Right.
    Mr. Luce.--have a chemistry teacher.
    We're also developing a virtual laboratory, which you can 
produce on a computer the actual instruments that would be used 
in a laboratory, which is essential.
    So, I think we're there. If states will push it, I think we 
can do it.
    Senator Begich. I would only add that, that's the 
assumption, that rural communities have high-speed broadband, 
which is not the case all the time, especially in Alaska. So, 
that is a challenge on--our committee has been working on, to 
ensure that we have that for delivery of tele-education, 
telemedicine, and other--but, your--I like the idea of the 
content. And kids grasp it much quicker there.
    I will say in--Ms. Naylor, when you mentioned--and I--you 
were very good about it, on the core standards. There are 48 
States--I'm embarrassed to say we are one of them that has not 
signed up yet. I've been pushing our Governor to do that, for 
all the reasons you just laid out. If we're going to be 
competitive in this world, on math and science, we have to at 
least be competitive among our own States. And I'm embarrassed 
to say our State is not one of those. So, I appreciate your 
politeness, in how you presented that, but I recognize it, and 
it is one we are continuing to push.
    From a teacher perspective, how do you see that question on 
the rural content? And if you could----
    Ms. Naylor. My job right now is as an instructional coach. 
I am--I don't want to say ``farmed out,'' but I have four or 
five schools that I go into, and I model the instructional 
strategies and the instructional materials that are new and 
unfamiliar to teachers. I do it in their own classrooms with 
their own children so they can actually see them work. And West 
Virginia is just now completing a new math adoption. And so, 
next year, all of our materials are going to be new.
    So, being assigned to five schools, I almost become a 
liaison on staff for them. And I move in and out of classrooms. 
The kids become familiar with me. I'm almost like another 
teacher on staff. And the teachers--you--it takes a while to 
build a relationship of trust with them. But, once they trust 
you, they open their classrooms and let you come in and model 
for them. And that collaborative partnership that's established 
between an instructional coach and a classroom teacher is very 
beneficial for the students and the teacher.
    Senator Begich. Very good.
    I--my time is up, but I want to thank you all for working 
on such a worthy endeavor.
    I'm a big supporter of the reauthorization and the 
resources. Mr. Luce, you have laid out a really good point. The 
private sector has done a great job in putting resources. It's 
our time to now match up and do what we can to get that list 
shortened.
    So, thank you all very much.
    The Chairman. Thank you, Senator.
    Senator Klobuchar.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you, Mr. Chairman.
    I appreciate our witnesses. You know, a few months ago, I 
went to my daughter--she's 14--her high school science fair. 
Her experiment, just so you know, Dr. Gates, not quite of your 
level, was measuring the amount of bacteria in prewashed versus 
unwashed lettuce. At the end of the experiment, she looked at 
the judges and said, ``My advice: Wash your lettuce.''
    [Laughter.]
    Senator Klobuchar. But, what I saw at that science fair was 
just this incredible enthusiasm and interest of these kids as 
they went up there to get their honors. And I thought to myself 
that this enthusiasm and interest can't end on the stage of a 
high school science fair.
    And I always think about those Beijing Olympics and the 
3,000 perfectly synchronized drummers, and I remember watching 
that with my family, thinking, ``We're in trouble,'' and that 
while those drumbeats are getting louder and louder, and 
they're building high-speed rail in Shanghai, we're still 
dithering, and while they're graduating more scientists and 
engineers, we're doing better, but we need to do even better 
than that. And so, that's why I'm so interested in this topic. 
I see it as purely how we need to move forward with an agenda 
of innovation. That's what they've done in our state.
    You know, Medtronic started in a garage. 3M started as a 
sandpaper company. And we're now seventh in the country for 
Fortune 500 companies. So, we truly believe in science and 
innovation in our State. And that's why I supported the bill 
that you mentioned, Dr. Miaoulis, the E2 bill, as well as some 
of the other STEM research, and why I entitled my subcommittee 
``Innovation, Competitiveness, and Export Promotion.''
    So, I wanted to first talk, I guess, with the teachers 
about how you get these kids truly motivated, to get them 
interested in areas that can seem very technical when you're in 
elementary school, and what you think works the best.
    Ms. Naylor. There are more and more inquiry-based materials 
coming into classrooms, where children actually get to 
experience both math and science, and develop their own 
conceptual knowledge. And these materials help enrich students 
that are ready for a challenge, and they also help remediate 
children who are--so, there are levels of differentiation in 
one activity, where every child's needs are met. And they all 
feel like they have succeeded by the end of that lesson, 
whether it's in science or math. And they go home, telling Mom 
or Dad, ``Today, I was an engineer,'' or, ``Today I was an 
astronaut.'' And that ``I can'' attitude--once the children 
have that, we don't want to take that away from that--them, 
because when they become--I guess an advantage we have in the 
elementary grades is that we don't give grades in science and 
math, in the lower grades. And so, there's not that grade 
hanging over their heads. I sometimes worry that when they get 
to middle school, they are so worried about the grade that 
it's, ``Get the grade, however you can,'' and they lose that 
intrinsic value of learning just for the sake of learning, just 
enjoying the feeling that, ``I accomplished something,'' even 
if it was tough to start out with.
    Senator Klobuchar. Very good.
    Dr. Gates. Can I----
    Senator Klobuchar. Yes. You all can go, so----
    Dr. Gates. Well, as a college professor, of course, it's a 
little bit different. At our level and mostly by the time we 
meet students, the real question is, ``How do you transition 
students out of K-12 into university level?'' Often, it is the 
case that they, in their preparation, have seen nothing like 
what they get when they come to us. And so, for us, we--the 
biggest thing that you could do to help keep the pipeline open 
is to make sure that we have a seamless transition, that when 
we talk about----
    Senator Klobuchar. Now, what do you mean by that, exactly? 
Because that is what I'm talking about here. Because I think 
there's more and more interest in that----
    Dr. Gates. Sure.
    Senator Klobuchar.--elementary--we've done a little better 
job with that.
    Dr. Gates. Sure.
    Senator Klobuchar. But, how do we keep it going?
    Dr. Gates. Yes. Well, the seamlessness would be around--
built, in particular, around something--a concept we hear a lot 
these days, known as ``college-ready'' and ``career-ready.'' 
College-ready for the STEM fields means that you have to be 
able to produce students that can engage the college curriculum 
without remediation at high rates. Universities are going to 
have to play a role in talking through K-12 officials at 
States' departments of education, and district level about what 
it means to have expectations for a successful student.
    Senator Klobuchar. And you think that the college 
professors know about the programs, opportunities that are 
available through STEM?
    Dr. Gates. Well, certainly more and more universities are 
coming to understand that we have to take ownership of this 
problem. At the University of Maryland, our Chancellor, Brit 
Kirwan (along with a number of other college/university 
chancellors and presidents), has agreed to put an increased 
focus on what the university system does in terms of taking 
ownership and correcting this fundamental problem and the 
production of teachers.
    Senator Klobuchar. OK.
    Dr. Miaoulis. Curriculum is key for that, too. And, 
actually, our elementary engineering curriculum--``Engineering 
is Elementary'' is its name--is probably the engineering 
curriculum used by the majority of elementary schools 
throughout the world. And actually, Minnesota is one of the 
biggest users.
    And the approach we use for that is the approach of a 
storybook. We have--the curriculum consists of 20 books. Each 
book is the story of a child from a different part of the 
world. And she describes her life, her village, or her city in 
a challenge or an opportunity that the city or the village had. 
For example, the little girl from India talks about lack of 
quality of drinking water in her town and how an environmental 
engineer built a filtration system and saved the town. And 
then, the kids, with the teacher, end up building a filtration 
system in the elementary school, and they become the engineers.
    And this curriculum has proven very effective. In 
particular, the initial research we have done, shows that it 
closed the gap between poor school districts and rich school 
districts, because kids from not-wealthy school districts see 
the whole point of learning science and solving real problems 
that are relevant to their lives.
    Senator Klobuchar. Very good.
    And, Mr. Luce, I know you, in your testimony, talked about 
the UTeach Program with high school retention. Do you want to 
elaborate on that, or anything else, with how we really make 
this a much bigger thing in our country, and it will help us, I 
believe, in the long term?
    Mr. Luce. Well, I would just add one thing. With all the 
things we talked about, about what we need in elementary school 
and middle school and innovation in after-school and 
everything, in our Advanced Placement Incentive and Training 
Program, we will go--we will increase the number of students in 
high school who, maybe, didn't have the best middle school 
training, didn't have the best elementary school training. 
We're going to have 85,000 students, in high school, who will 
take an advanced placement course, and pass it, in math and 
science.
    Now, what that says to me is, what we'd better do--let's at 
least harvest the kids who are not reaching their potential 
today, because they'll be ready to go to college if they're 
given an advanced course and given the opportunity. It's 
access. It's equity. It's making them career-ready and college-
ready.
    And we still have low-hanging fruit in high school. If I 
had my way, we'd have wonderful programs in elementary school 
and middle school. But, while we're waiting, we'd better not 
write off another generation, or we're going to fall further 
behind the Chinese and Indians.
    That's all I would add to it, is that there is action we 
can take today, on a national scale, that will make a 
difference.
    Senator Klobuchar. Thank you very much.
    Mr. Luce. And Minnesota is one of our States.
    Senator Klobuchar. Very good.
    I love when Texas commends Minnesota. From the Lone Star to 
the----
    Mr. Luce. Well, I'll tell you----
    Senator Klobuchar.--North Star.
    Mr. Luce.--one story. Your Governor----
    Senator Klobuchar. Yes.
    Mr. Luce.--pointed proudly to the ``10,000 Lakes'' license 
plate and said, ``Actually, we have 12,000''----
    Senator Klobuchar. Yes, that's true.
    Mr. Luce.--``but we didn't want to brag.''
    Senator Klobuchar. Yes.
    Mr. Luce. I said, ``Well, I'm from Texas. That doesn't 
bother me, about the bragging.''
    [Laughter.]
    Senator Klobuchar. Well, you know, we're in a little bit of 
a fight with you over who has the biggest----
    Mr. Luce. Yes.
    Senator Klobuchar.--state fair, you know----
    Mr. Luce. I understand.
    Senator Klobuchar.--you know, that we really, truly do, but 
you keep yours open for----
    Mr. Luce. Well, we can agree on education.
    Senator Klobuchar.--30 days.
    [Laughter.]
    Mr. Luce. Yes.
    Senator Klobuchar. OK, thank you. Yes, they're just big, 
period--Alaska.
    All right. Thank you.
    The Chairman. We have moved from STEM to State chauvinism 
here.
    [Laughter.]
    Mr. Luce. The 'S' word.
    The Chairman. I want to ask this question. You know, the 
ages you referred to who watch you, rather than ESPN or 
something else--was it 17 to 22, or was it earlier?
    Mr. Zaslav. It started at 12.
    The Chairman. Started at 12 to 22?
    Mr. Zaslav. Yes.
    The Chairman. See, that is such a sensational figure. That 
is so sensational, because it raises a whole slew of questions, 
because it means that we, here, and school systems, are 
underestimating--clinically, describable through metrics--
underestimating their students and what they want to learn.
    Now, I raised the question of boards of education. This--
anybody can talk on this, and, Ms. Naylor, you don't get to 
teach, except as you are allowed to teach, right?
    Ms. Naylor. Well----
    The Chairman. No, I want you to be--this is a direct 
question, in congressional testimony. I mean, aren't they a 
problem? They tend to be older, somewhat. And they tend to be 
more traditional.
    Ms. Naylor.--they are more traditional. And I don't know 
about other States, but in West Virginia, it's political. 
Boards of education are elected. I am required to teach the 
national standards or the State standards, whichever my State 
has adopted. And I am required to teach the curriculum that my 
county has adopted. But, there are times when the door is 
closed and I can teach things my way and still teach the 
standards and still use the materials they require. But, I can 
teach them my way. Fortunately, I have some background that 
enables me to do that. And all teachers don't.
    Dr. Gates. Senator, if----
    The Chairman. Please.
    Dr. Gates.--I may respond.
    I'm actually a member of my State boards of education in 
Maryland. We have experience working with the 24 school boards 
in the state. I can tell you that one of the most encouraging 
things, to which Ms. Naylor alluded previously, is the common 
core. At the State level, what has been done (for the first 
time I've seen in my life) is a sort of awakening to set a 
standard where a sufficient number of people have come together 
and said, ``Yes, we will sign on to that.'' It appears to have 
started the process of creating a rational market wherein you 
can have a sufficient number of people agreeing on how to do 
innovation, and provides an environment where it will be done.
    The other recent thing I can tell you which the Department 
of Education has done and that I can see reflected from the 
State level, is the competition for the Race to the Top funding 
that the Department has out there now. This competition has 
done more than I have ever seen before in getting states to 
concentrate, at least the state level, on improving standards, 
finding metrics, and enunciating high standards.
    So, one of the things for which I commend this body, and 
the entire government, is for the support that has gone to the 
Department of Education to support these new State standards. I 
think Secretary Duncan is doing a marvelous job. And I would 
hope that that kind of setting of a target that draws states 
together will continue to be an exercise coming out of this 
body.
    The Chairman. Thank you, sir.
    Let me probe you. Twelve to 22. Now is that among all 
income levels? Is that rural, urban, rich, poor----
    Mr. Zaslav. It simply----
    The Chairman.--racial----
    Mr. Zaslav.--captures----
    The Chairman.--is it racially divided?
    Mr. Zaslav. It captures kids that are watching television.
    The Chairman. I know it's kids watching television.
    Mr. Zaslav. But, what it really shows is that a good 
teacher can engage students; quality content that's 
interesting----
    The Chairman. No, but I'm asking you another question. Are 
those folks who are picking you over ESPN--which is a glorious 
decision--do they represent America, as a whole--racially, 
income-wise, and geographically?
    Mr. Zaslav. It represents a demo of 12- to 22-year-olds all 
across the country, on a particular night, that are making a 
choice to watch----
    The Chairman. Have you----
    Mr. Zaslav.--Discovery.
    The Chairman. Have you done any surveys as to whether they 
come from Latino families, African-American families, rich 
white families, poor white families in Appalachia or whatever?
    Mr. Zaslav. We can get you some data on it, but Discovery 
tends to be pretty broad-based. But, we can get you the 
specific data.
    [The information referred to follows:]

    Based on Nielsen ratings, the data shows that during the Second 
Quarter of 2010, the science related programming found on the Discovery 
Channel outrated the sports programming on ESPN with young boys and men 
(age 12-22) on 3 nights of the week in primetime--Monday, Wednesday and 
Sunday nights by 37 percent, 63 percent and 8 percent, respectively. 
Also from April to present, Discovery Channel outrated ESPN2 in 
primetime with young boys and men (age 12-22) on Monday, Wednesday and 
Sunday nights by an amazing 113 percent, 347 percent and 129 percent, 
respectively.
    The programming on Discovery Channel at primetime on other nights 
of the week is not particularly science related which is why we are 
providing only the Monday, Wednesday and Sunday data. Given the 
Chairman's interest in statistics on sports programming vs. science 
education programming, we wanted you to have the most relevant 
information.
    Clearly there is a demand for science related television from the 
critical age groups.

    The Chairman. I would really like that, because I've 
already asked staff to start planning an attack on the cable 
industry to do more. Because honestly, I have a rather low 
regard for the cable industry. I think they dumb-down America. 
On the other hand, you're doing the right thing. You're doing 
exactly what the good doctor over here wants.
    Mr. Zaslav. Thank you, Mr. Chairman.
    The Chairman.--doable.
    Susan, is it doable?
    Ms. Naylor. It's definitely doable, Senator.
    The Chairman. And does--is it doable only if they have you 
as a teacher? Is that--that's----
    Ms. Naylor. No, there are very--there are a lot of 
dedicated teachers. They just need to be given the professional 
development to feel confident to use the new materials and 
the----
    The Chairman. But, where----
    Ms. Naylor.--new strategies.
    The Chairman.--do you get the professional development? 
You've got to take time off. Is that a summer activity?
    Ms. Naylor. Exactly.
    The Chairman. Is that enough to give you--one summer?
    Ms. Naylor. No, sir.
    The Chairman. How long does it take to get a teacher to 
that level?
    Ms. Naylor. It needs to be sustained. It needs to be--a lot 
of teachers attend webcasts. A lot of teachers go for weekend 
training. But, the money is not there, Senator. A teacher--you 
know, in our State, our Governor asked that teachers not be 
released from classrooms because of snow days. And so, those 
teachers have to go--if they want extra training, they have to 
take their own initiative, their own money, their own weekend, 
and go get it, wherever it happens to be, whether it's in 
Morgantown or whether it's in Charleston. If it has been 
advertised and they're interested in it--there was no money 
this year for very many teachers to go to any national 
conferences. And that's one very good place for teachers to get 
it.
    Senator Begich. Senator----
    Ms. Naylor. Excuse me.
    The Chairman. Senator Begich, I want you to ask a question.
    Ms. Naylor. Dr. Payne, in West Virginia, is starting to 
facilitate professional learning communities within schools, 
where a whole staff attacks a particular professional issue. 
And they might do a book study. They might do a webcast. And, 
to me, that is much more consistent than taking one teacher 
from Pocahontas County and one teacher from Wood County, and 
bringing teachers from 40 counties to Charleston. And then they 
go back and they're still isolated. But, if you bring a whole 
staff together, and you have them tackle a particular issue--
like if they look at the WESTEST scores and they see that there 
is a weakness in a particular subject area, and they attack 
what--as a staff, whether they bring in an expert or whether 
they do a book study or something--then that's effective.
    The Chairman. Because the trick is, is it not--you can--you 
prove it. The kids want it. Kids--22--you're in college. You're 
out of college. So, they want it. The kids and the young men 
and women want it, and we're not supplying it, on the theory 
that has been demonstrated by some that they're afraid of it, 
they think they won't do well, or you've got to get a high GPA, 
or whatever it is.
    So, we are underestimating them, and we are mistreating 
them, in terms of their future. We're giving them an education 
which deliberately shortchanges what they can do with that 
education for their own futures.
    Mr. Luce. Senator, we--you have authorized a program that, 
if you funded, would do exactly what she's talking about. In 
our Advanced Placement Incentive and Training Program, we go to 
the school and give them--teachers--coaching and mentoring 
throughout the year at the school. We give them professional 
content, professional development. We don't underestimate the 
students. And we're producing dramatic results. But, the 
private sector is paying for it in six States, and we have 22 
states who are waiting to do exactly what you're asking for. 
But, you haven't funded it.
    The Chairman. Senator Begich, if you'd indulge me, 30 
seconds.
    Senator Begich. Absolutely.
    The Chairman. Dr. Miaoulis, the--on cable, there are two 
programs--one called NCIS, and one called CSI New York. Now, 
particularly NCIS--I ask--I guess I ask this to you all--but, 
it's all about technology. I mean, unless kids are just 
Sherlock Holmes devotees--and I don't think that's necessarily 
true--I think that they are fascinated by people who just make 
no decisions without technology--about how fast computers show 
them--you know, bring up the bad guys and track this and can 
place where somebody is within any given moment, within 
seconds. That--I think that qualifies as technology. So, 
they're showing even--I guess those are CBS things, I'm not 
even sure--but, they're showing--they're reacting to that for 
some reason. And I don't think it's the detective nature. So, 
is that one way they're expressing their interest in something 
more out of school?
    Dr. Gates. Senator Rockefeller, I can respond to that very 
directly, because we have seen the impact of these television 
shows on students as they come to college. In fact, what 
happens is rather interesting. You have students who are fired 
up, who are enthusiastic, about the idea of learning how to 
master this kind of technology and science. And when they get 
to college, they find out that the preparation that they have 
had in their school does not allow them to do this. And so, 
although they come with the enthusiasm, when they confront the 
actual technical requirements to get to where you need to be in 
order to do that, many of them become discouraged and change 
direction.
    The Chairman. And, by the way----
    Dr. Gates. We've seen this.
    The Chairman.--there's a heavy dose of forensics.
    Dr. Gates. Yes. And we've seen this actually go on across 
universities across the country.
    The Chairman. Yes. Now, I interrupted rudely, as is my 
custom.
    Senator Begich.
    Senator Begich. Mr. Chairman, you have all the rights to do 
whatever you want. I'm just a pawn in your committee.
    [Laughter.]
    Senator Begich. Now let me ask some questions.
    No, I'm just--thank you, Mr. Chairman, for the opportunity.
    I want to follow in one area, as I talked a little about 
rural communities--but, how do you--recognizing, for example, 
in Anchorage, Alaska, in our school district, we have 94 
different languages spoken, one of the highest in the Nation, 
compared to Chicago and New York and others--and L.A. How do 
you deliver STEM education training and STEM education with 
such diverse school districts that are now growing to be more 
diverse as time goes on? Anyone want to comment on that?
    Dr. Miaoulis. Well----
    Senator Begich. And the language barriers that do exist, as 
English may not be their first language at this point in time.
    Dr. Miaoulis. I'll address the diversity issue, not the 
language issue.
    Role models play a big role in motivating children to go in 
certain areas. So, presenting science and engineering and math 
in a way that kids could see the big players look like them is 
very important. And that's why our curriculum is designed to 
address that. Every single element of the curriculum features a 
kid that looks different. They're not all white kids. And it 
has worked very well.
    Senator Begich. Good. Anyone else want to--on the language 
issues, or the--go ahead.
    Ms. Naylor. The new math materials that West Virginia just 
adopted--and these companies are nationwide, so I assume that 
they are available in other States, as well--integrate an 
English language learner component in them so that the teacher 
is able to facilitate their learning of English as a language 
in the vocabulary that goes with the math and science lessons 
that she's teaching. And also, a lot of the DVD supports that 
are provided are available multilingual.
    Dr. Gates. At least near the beginnings of the educational 
experience, there are some anecdotes. When students are 
learning basic arithmetic (addition, subtraction, etc.) because 
the topic is not so tightly bound to language and as long as 
you have students who are sufficiently fluent in a language, 
those students do fairly well with, as I said, the basis of 
mathematics.
    Senator Begich. Very good.
    Let me--Mr. Chairman, I don't have, really, any additional 
questions. Again, I just want to comment.
    I--Mr. Luce, I--you're right. I mean, I can--your comment, 
I think, at the very beginning was, ``The best economic 
stimulus or economic recovery is education.'' And let me just 
make a comment and maybe a question here. For example, we're 
going to be dealing with a comprehensive energy policy at some 
point, which is interesting, because part of it's about the new 
energy economy. There's no education component to the 
legislation, which I think is a glaring gap, because a lot of 
that's going to be science, math, technology. And it's great to 
have a policy about a new economy. But, if you don't have the 
education component melded into it, it's irrelevant over the 
long haul, because we will be responding to other countries who 
will produce the material, as China is proving more and more, 
especially in renewable energy technology. Is that--that's my 
analysis. I don't know if--I'm seeing a lot of heads shaking 
yes, so I think I'm right on this. So, Mr. Luce or anyone else 
want to----
    Mr. Luce. Well, I would just add, also, it's just so 
important, in our democracy today, that all of our citizens be 
what I would call ``STEM-capable.'' They may not go into a STEM 
career----
    Senator Begich. Right.
    Mr. Luce.--but they have to be STEM-capable in the 21st 
century. And that's a huge change in our country and a huge 
change in our education system. But, we have to address it. If 
our students aren't STEM-capable, it's not just jobs, it's 
making basic fundamental decisions in our democracy.
    Senator Begich. Do you think we need to make sure, in these 
broader policies, like energy policy or, you know, these larger 
issues that we deal with--actually, oddly enough, Wall Street 
reform--you know, one of the things we don't do enough of in 
school anymore is--I know I had to take it--was personal 
finance. It has kind of been shoved out the door because we've 
got to meet all these--I'll be very blunt here--crazy standards 
that--No Child Left Behind has strangled our school districts. 
I don't like the legislation, never have, for a variety of 
reasons. It's a disincentive- versus incentive-driven. But, let 
me get off of that rant and just say that--is it something we 
need to kind of change the way we--you know, we're going to do, 
at some point, I'm assuming, some energy policy for our 
country. But, if we're not thinking about the education 
component--and I can, you know, many major issues like that 
we're dealing with. And then I'll stop with my questions.
    Dr. Miaoulis. Well, one of my recommendations in my written 
testimony is to urge Congress to support the President's 
proposed RE-ENERGYSE education initiative at the Department of 
Energy, which includes both formal and informal education, so 
that both schools could introduce curricula related to energy 
and the science centers could play a role in affecting the 
general public. And the funding agencies that support research 
and development in the areas of energy could require that each 
grant has an outreach component. So, if a university gets a 
grant to develop a new research program on, let's say, wind 
energy, they could be required to work with a science center to 
educate the public around the work they do.
    Senator Begich. Very good.
    Any other last comments, before----
    Ms. Naylor. There is a move, in education, for teachers to 
incorporate PBLs, they're problem-based learning, where 
children are provided a real-world problem, and they solve it, 
integrating math and science and the other areas. There's a 
school in my school system that the kids have been challenged--
each classroom has been given a certain amount of money to 
spend for energy for the school year, and they have to decide--
they have figured out how much each light costs in their room, 
how much it costs to run a computer, how much it costs to 
elevate or reduce the temperature in their room. And when I go 
in to teach, they have to decide--they have to vote--whether or 
not they have enough money to turn on the extra electricity to 
illuminate the board I want to use. And their incentive is, the 
classroom that saves the most money by the end of the year gets 
that money to spend on something. And so, these real-world 
problem-based scenarios are a wonderful way to teach things 
like energy.
    Senator Begich. We could have a peer teaching program here. 
We'll look forward to those students helping us. So, thank you 
very much.
    My time has really expired. But, Mr. Chairman, thank you 
very much for the opportunity to ask these additional 
questions.
    The Chairman. No, I think there'll be lots of them.
    And you may receive some in the mail, and I hope that 
you'll answer them.
    But, to me, this has been an extraordinarily good, helpful, 
and potentially far-reaching hearing. And I profoundly thank 
each and every one of you for what you've done and for what 
you're doing.
    Ms. Naylor. Thank you.
    Dr. Gates. Thank you.
    The Chairman. Hearing is adjourned.
    [Whereupon, at 11:59 a.m., the hearing was adjourned.]


                            A P P E N D I X

    Response to Written Questions Submitted by Hon. Mark Warner to 
                              David Zaslav

    Question 1. The President has pledged $3.7 billion for STEM 
education in the budget, including $1 billion for K-12 STEM education. 
That funding is spread across many agencies with different cultures and 
missions. How do you see the Department of Education, NSF and the 
mission agencies working together to develop a strategy, including 
basic elements as a common set of metrics for assessing and comparing 
programs?
    Answer. As the leading media provider of science-related 
programming and education, Discovery applauds this committee and the 
Administration for working to better educate American students in the 
fields of science, technology, engineering and math. Excelling in these 
areas is critical to our Nation's ability to compete at the highest 
level in an ever-increasingly global economy. To reach this goal, 
students must have the resources inside and outside the classroom 
necessary to kindle and maintain a fascination with these critical 
areas, and Discovery applauds the steps taken by both Congress and the 
Administration to meet those needs.

    Question 2. Are there model programs or approaches to curriculum 
and instruction that have demonstrated how to increase student 
achievement and/or teacher performance? What are we investing in? How 
are these programs evaluated for effectiveness?
    Answer. Several states, school systems and education organizations 
have created effective STEM curriculum and instruction programs. For 
example, Discovery Education's comprehensive digital science services 
for elementary and middle level science classrooms are the first 
digital core instructional materials to be approved for statewide 
adoption in Oregon. Correlated to the state science curriculum 
standards and organized around an inquiry-based framework, these 
digital solutions cover the physical, earth and space, and life 
sciences, and encourage student exploration, stimulate critical 
thinking and deepen students' understanding of science. Discovery 
Education Science also includes a formative assessment tool that 
provides information on which skills and concepts have been mastered, 
while directing individual students to remedial activities that address 
areas in need of improvement.
    Discovery Education has partnered with a number of states and 
districts and has successfully evaluated the impact of our programs on 
student achievement. For example, Discovery Education partnered with 
the Charlotte Mecklenburg Schools (CMS) in North Carolina in 2008. This 
partnership lead to the implementation of a multi-year science 
curriculum and professional development initiative designed to increase 
science scores, address needs in reading and math, and provide a more 
relevant science curriculum to excite and engage teachers and students. 
The outcome of this collaboration was that CMS students achieved a 44 
percent gain in science proficiency on the North Carolina state exams 
within a 12-month period.

    Question 3. Is the curriculum tailored to make sure we're teaching 
people about current challenges like clean energy problems or other 
national interests? If so, how are we measuring that this is actually 
happening?
    Answer. Discovery Education offers an array of services that 
educate students about current domestic challenges. For instance, with 
the recent Gulf oil spill, Discovery Education immediately responded by 
offering video resources as well as a nationally attended webinar 
hosted by Philippe Cousteau, Chief Spokesperson for Environmental 
Education at Discovery Education. Tens of thousands of teachers and 
students attended from across the country to hear his first hand 
account of the immediate effects of the spill.
    Other digital curricular resources such as video, virtual labs, 
science explorations, hands on activities, leveled reading passages, 
and eBooks to support literacy, are offered through our inquiry-based, 
Discovery Education Science program. During peak periods, over two 
million digital lessons and activities that span important topics from 
science and mathematics, to cultural awareness and the global economy, 
are delivered to classrooms around the country.
    Additionally, Discovery Education works with industry partners to 
sponsor engagement programs that challenge students to actively 
participate in making our country a better place for future 
generations. Thousands of students from all fifty states have 
participated in programs like the Siemens We Can Change the World 
Challenge and Discovery Education/3M Young Scientist Challenge. In an 
effort to better prepare teachers to effectively teach STEM concepts, 
Discovery Education is hosting a national STEM Academy August 1-6, 2010 
where teachers can work with world-renowned scientists and nationally-
recognized educators to hone their skills in sparking interest in STEM 
careers for their students.

    Question 4. What else do we need to do? What are the major barriers 
to improving the interest and performance of K-12 students and teachers 
in STEM?
    Answer. Providing high quality content, generating student interest 
and motivating students to pursue STEM fields, along with improving 
teacher knowledge and training, and providing administrative support 
for effective STEM education, are all crucial to increasing performance 
of K-12 students and teachers in STEM education. Students need to see 
real-world applications of STEM. State and local leaders should also 
provide incentives for teachers to enter the STEM field, particularly 
when it comes to the representation of minorities and women.
    Additionally, there must be vertical alignment of STEM education by 
improving linkages between secondary education, higher education and 
the workforce as well as within the Preschool-12 education system. 
There also needs to be an emphasis on forming strong and effective 
public-private STEM partnerships among state education agencies, local 
education agencies, institutions of higher education and the private 
sector.
    Here are a few examples of how Discovery Education is helping 
students and teachers overcome barriers through the following:

  <bullet> STEM Connect: Offered by Discovery Education, this new 
        curriculum-based and career development science resource is a 
        module designed to fuel teacher and classroom engagement by 
        helping students link science, technology, engineering and 
        mathematics to the real world. Through a collection of rich 
        media educational content, career exploration tools, 
        interactives and hands-on activities, STEM Connect makes 
        science concepts come alive.

  <bullet> The Siemens STEM Academy: Partnering with the Siemens 
        Foundation, Discovery Education created a national STEM 
        education program for teachers. Designed to support educators 
        in their efforts to foster student achievement in STEM, the 
        program includes the first online shared repository of STEM 
        best teaching practices, a National Teacher Academy bringing 
        together science educators from across the country, and an 
        ongoing webinar series featuring leading scientists and experts 
        in their fields.

    Question 5. How can partnerships between various stakeholders in 
the STEM education system facilitate the identification and 
implementation of successful models?
    Answer. Discovery supports public-private partnerships and is 
uniquely qualified to support schools through Discovery Education, the 
top provider of digital content to schools. For example, Discovery 
Education Science is designed for elementary and middle school science 
classrooms and correlated to state science curriculum standards. This 
service fits perfectly with the Department of Energy's pilot grant 
program for statewide secondary schools specializing in science. These 
types of synergies between the government and private sector will 
enable schools to improve student achievement.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Warner to 
                            Ms. Susan Naylor

    Question 1. The President has pledged $3.7 billion for STEM 
education in the budget, including $1 billion for K-12 STEM education. 
That funding is spread across many agencies with different cultures and 
missions. How do you see the Department of Education, NSF and the 
mission agencies working together to develop a strategy, including 
basic elements as a common set of metrics for assessing and comparing 
programs?
    Answer. I would recommend that any funding application process be 
developed with teacher input. Most teachers can see beyond their own 
backyards to the bigger picture of what is best for the most students, 
regardless of the different culture and mission being addressed. 
Teachers have the best understanding of what would be realistically 
effective in schools and classrooms, and a true sense of what teachers 
would need to implement any proposed programs.

    Question 2. Are there model programs or approaches to curriculum 
and instruction that have demonstrated how to increase student 
achievement and/or teacher performance?
    Answer. The nationwide movement from traditional textbook, ``stand 
and deliver'' instruction to the more 21st century-appropriate 
``inquiry'' student involvement programs of instruction has much 
research to support its impressive impact on student achievement and 
also on the professional development of teachers implementing the 
materials and strategies. The TERC ``Investigations'', (http://
investigations.terc.edu) elementary mathematics curriculum, currently 
being distributed through Pearson publishers is one that I have 
witnessed first hand to have the impact you are asking about. Also the 
``Everyday Mathematics'' program, born from the University of Chicago 
School Mathematics Project has a great deal of research supporting 
it.(http://everydaymath.uchicago.edu) I'm sorry that my field is 
limited to citing elementary mathematics programs, I am sure teachers 
in the other STEM fields could refer you to equally impressive programs 
in their areas.

    Question 2a. What are we investing in?
    Answer. I have witnessed us, as a country, investing in 50 
different directions based on 50 different state standards and 
instructional objectives. Although I appreciate the needs of individual 
states, the redundancy of work and cost has been a sad waste of 
resources. I am very optimistic about the CORE CURRICULUM. As the 
population of our country becomes more and more mobile, students (and 
teachers) will benefit from the consistency. There will be more harmony 
in educational pedagogy, instructional materials, appropriate 
assessment and staff development.

    Question 3. How are these programs evaluated for effectiveness? Is 
the curriculum tailored to make sure we're teaching people about 
current challenges like clean energy problems or other national 
interests?
    Answer. In many states, curriculums are being enriched with PBLs 
(Project Based Learning)--units of study developed around real world 
problems and timely issues. Through these PBLs, students uncover what 
they need to know in order to address the challenge presented to them. 
They become their own teachers, with the classroom teacher serving as 
the facilitator and mentor. The West Virginia Department of Education 
has built an impressive library of teacher designed PBLs for grade 
levels K-12 and across many curricular areas which is available on 
their Teach 21 website: http://wvde.state.wv.us/teach21/pbl.html.

    Question 3a. If so, how are we measuring that this is actually 
happening?
    Answer. Teachers report high levels of student engagement and 
deeper conceptual understanding of targeted skills and content. Most 
PBLs include a variety of assessments that can be used to measure 
student achievement as the project progresses. I don't know of any 
standardized measurement of student achievement that can isolate data 
to specifically measure the effectiveness of PBLs, but I recommend the 
Buck Institute for Education websites if you would like more 
information (www.bie.org and pbl-online.org)

    Question 4. What else do we need to do? What are the major barriers 
to improving the interest and performance of K-12 students and teachers 
in STEM?
    Answer. The teachers I work with, both locally, at my state level 
and at national levels unanimously cite teacher education as the major 
barrier to improving interest and performance of students and teachers 
in the STEM areas. We are desperate for high quality, content specific 
and sustainable staff development. Teachers are so accustomed to the 
``flavor of the day'' staff development, that they have developed an 
expectation that before long another train will come down the track and 
the current one will be abandoned, so they don't invest much of 
themselves in the trainings and certainly don't expect them to make 
much of a difference. Teachers have not had the support, especially in 
their own classrooms, to sustain any significant change in practice 
even if they are persuaded to try it. Teachers also need avenues to 
connect with peers; many are isolated by scheduling issues and never 
have opportunities to build collaborative professional relationships 
with other teachers which could support the change we advocate.

    Question 5. How can partnerships between various stakeholders in 
the STEM education system facilitate the identification and 
implementation of successful models?
    Answer. I would hesitate to identify successful models on research 
alone, teachers who are actually teaching from a specific curriculum 
can offer a great deal of information regarding its impact on their own 
students, their ability to implement the components of the programs, 
and how effective the program's assessments and subsequent 
interventions are for promoting achievement. I also suggest that 
students in secondary classrooms, as stakeholders who have the ability 
to express their opinions, should be included in identification of 
models that were successful for them.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                        Dr. S. James Gates, Jr.

    Thank you for the questions following my appearance before the 
Senate Commerce Committee and the opportunity to respond to them. 
Before I respond, let me state I am not speaking on behalf of any 
group, institution, or organization to which I belong nor with which I 
am affiliated. My responses are personal, but informed by my experience 
in higher education, as a research scientist, and as someone involved 
in policy formation over the last twenty-five years.

    Question 1. To date, what are the most promising efforts to attract 
and retain women and minorities in STEM fields?
    Answer. In response to your first question, there are two rather 
distinct states of rate participation playing out.
    Regarding women, although their participation of in our Nation's 
STEM disciplines still lags, there continues to be an observable 
improvement in the rates. The improvement varies across disciplinary 
fields. For example, my own area of physics is generally found to have 
among the lowest rate of participation by female scientists. Biology 
has a higher rate of participation. In addition there continues to be 
noticeable differences in awarding academic rank; the rate of promotion 
for women to assistant, associate, and full professor vary widely 
across all universities and colleges including our most elite ones. A 
similar situation seems to prevail at national laboratories. But the 
overall picture is one of improvement; it is painfully slow, but it is 
improvement.
    Regarding minorities, participation rates in STEM fields are 
approximately 4-7 percent with little, if any, detectable trends toward 
substantial improvement.
    Unfortunately, I know of no generally accepted metrics that allow 
me to tell which efforts have performed best.

    Question 2. What can be done to assure that there is sufficient 
support, mentoring, etc. so that our economy will benefit from their 
future contributions?
    Answer. This is a difficult question for me to answer. Although one 
might argue about the depth or quality of past efforts in this 
direction, the fact remains efforts have been and continue to be made. 
Some of these efforts have improved the rates of female participation 
in different STEM fields. I believe for this progress to be sustained, 
current evidence suggests maintenance of policy and practice already in 
place will yield continued results, albeit slow ones. To increase 
minority participation in STEM disciplines, in my opinion, the most 
effective investment would be to attack the lack of access to high 
quality teaching of STEM areas in the K-12 school systems, especially 
in large urban areas with regard to the African-Americans and Hispanic-
Americans, reservations with regard to Native American, and rural areas 
for American away from our large cities. I believe that one other way 
to attack this problem is to ensure that schools have state-of-the-art 
broadband Internet coupled with policies and practices that allow 
students and teachers the opportunity to utilize such access.

    Question 3. What efforts have been successful in attracting Native 
American students in Tribal schools to succeed in STEM fields?
    Answer. I have seen at least one focused thrust result in greater 
involvement in STEM fields among Native American students in Tribal 
schools. Let me give an example of a successful program. I served on 
the board of the organization Quality Education for Minorities Network 
(QEM) based in Washington, DC. For over a decade, QEM operated programs 
(with a STEM focus) in tribal schools across the U.S. that increased 
STEM educational engagement. The key elements of the QEM effort 
included: (a) workshops at Tribal school by visiting scholars, (b) 
readily available Internet access, and (c) professional development 
seminars for tribal school teachers.

    Question 4. Do you have any specific recommendations for 
encouraging women and minorities to take advantage of STEM career 
opportunities with the Federal agencies that this committee oversees?
    Answer. When I was Chairman of the Physics Department at Howard 
University, I made an effort to ensure that students had access to high 
quality summer jobs and internships at national laboratories 
(Department of Energy, National Aeronautics and Space Administration, 
etc.). Many such programs existed in the early nineties. I am still a 
believer that such programs can make a difference.
    However, stringent attention must be paid to design and 
effectiveness of these programs. In some poorly designed programs 
students were given rote work, and not integrated into laboratory staff 
or actual research. I believe such programs would ideally require 
students to become involved in data collection, collation, and analysis 
in high-priority laboratory projects. Those responsible for these 
programs must have the scientific credentials to lead. Outreach/equity 
officer members of laboratory staffs did not provide the required 
leadership. The operation of such programs without aggressive 
monitoring and oversight by scientists does not appear to be a good 
investment.
    Again, as Chairman of the Physics Department, I worked to 
facilitate the engagement of the Howard University physics department 
with programs at national laboratories by involving undergraduate 
students, graduate students and faculty in collaborations with 
scientists at major institutions to actively pursue research. In some 
laboratories, particularly Department of Energy laboratories, 
laboratory managers were actively resistant to this partnership. At a 
minimum, I believe the U.S. Government should create policies that 
promote the active engagement of national laboratories with 
historically black colleges and universities, minority serving 
institutions, and tribal colleges. Thus, it might be a useful exercise 
for U.S. Government supported laboratories to collect outcome-based 
statistics so policymakers can actively monitor their performance in 
this area.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Warner to 
                        Dr. S. James Gates, Jr.

    Thank you for the questions following my appearance before the 
Senate Commerce Committee and the opportunity to respond to them. 
Before I respond, let me state I am not speaking on behalf of any 
group, institution, or organization to which I belong nor with which I 
am affiliated. My responses are personal, but informed by my experience 
in higher education, as a research scientist, and as someone involved 
in policy formation over the last twenty-five years.
    Question 1. The President has pledged $3.7 billion for STEM 
education in the budget, including $1 billion for K-12 STEM education. 
That funding is spread across many agencies with different cultures and 
missions. How do you see the Department of Education, NSF and the 
mission agencies working together to develop a strategy, including 
basic elements as a common set of metrics for assessing and comparing 
programs?
    Answer. As a scientist and university educator whose work has been 
funded by the National Science Foundation (NSF), the National 
Aeronautics and Space Administration (NASA), and who has served in 
various advisory capacities with the Department of Energy, and the 
National Science Foundation, I have over 25 years experience observing 
some of the science mission agencies make efforts in this area. I have 
had very little experience with the Department of Education. This 
dichotomy is representative of a part of the problem.
    Currently, the various agencies of the U.S. Government have an 
array of programs to assist the Nation with the STEM education 
challenge. I do not have to emphasize the link between the current 
shortfall in the national performance in these areas as measured by 
international metrics and the threat this poses the economic future of 
the United States. I believe a more vigorous strategic approach to the 
expenditure of efforts and resources would greatly benefit the 
effectiveness of the programs of known to me. My own observations, 
though purely anecdotal, support the view that more precise metrics and 
assessments are vitally needed to maximize the return on government 
expenditures.
    I believe that a more vigorous and comprehensive integration of 
programs between the Department of Education and the science mission 
agencies of the U.S. Government focused in the area of STEM education 
ought to be considered. But no broad brush one-size-fits-all approach 
will work.

    Question 2. Are there model programs or approaches to curriculum 
and instruction that have demonstrated how to increase student 
achievement and/or teacher performance? What are we investing in? How 
are these programs evaluated for effectiveness?
    Answer. As an individual scientist and educator, I have come across 
some small number of programs that seem to accomplish the goals of 
increased student achievement and/or teacher performance. However, such 
programs often seem to be a ``one-off'' whose existence is not widely 
known or duplicated. As a result, though there appears to be 
substantial investment aimed at the goals you indicate in your 
question, it is extremely difficult to know what the current 
investments are. As a practical matter, there is a great need for some 
centralized mechanism for at least an inventory of such investments. 
There is also a need for standardization of assessment so that 
effectiveness can be measured and compared.

    Question 3. Is the curriculum tailored to make sure we're teaching 
people about current challenges like clean energy problems or other 
national interests? If so, how are we measuring that this is actually 
happening?
    Answer. We are confronted by an extremely fractured system. The 
extreme divides between wealth and poverty, access to modern computer-
based communication networks, urban versus rural communities, 
distinctions in community values, etc. make it impossible to provide a 
comprehensive answer. For some students in some situations there is 
excellent curriculum material preparing the next generation to face 
these problems. Some great examples exist. Agencies such as the 
National Oceanic and Atmospheric Administration (NOAA) and NASA have 
already provided on-line access to data sets taken from the real world 
and packaged so that these can become modules in curriculum materials. 
The second part of your question concerns measuring what is happening. 
I cannot report much optimism. The lack of the ability to assess 
effectiveness is an over-arching problem across all STEM disciplines.

    Question 4. What else do we need to do? What are the major barriers 
to improving the interest and performance of K-12 students and teachers 
in STEM?
    Answer. You have raised the question of what else can be done. I 
believe the answer to this is beginning to emerge. Let me give one 
example. There has recently emerged a state-led effort to establish a 
common core of standards in language arts and mathematics. This is an 
important national accomplishment and a model for how a grass-roots 
approach is capable of attacking a national problem. The U.S. 
Government should position itself to effectively support such future 
efforts. The so-called ``digital divide,'' especially with respect to 
state-of-the-art communication, technology still exists. As our Nation 
created the national highway system during the 50s and 60s, the 
creation of a state-of-the-art electronic equivalent today is an 
important challenge. A part of this must include the most efficient 
management of the electromagnetic spectrum.

    Question 5. How can partnerships between various stakeholders in 
the STEM education system facilitate the identification and 
implementation of successful models?
    Answer. It is my opinion that the STEM community itself has a 
responsibility to look deeply at its ethos, practices, and values in 
view of asking a simple question: How can we be more effective in 
discharging our duty to the Nation in opening our disciplines to all 
Americans who have the ability to contribute? Continuing as we (the 
STEM community) are today is a prescription for a continuation of young 
Americans opting not to pursue these areas vital to the long-term 
interest of the country. A possible way such partnerships might unfold 
would be to create incentives for STEM researchers to increase their 
engagement in the education of younger citizens. However, any such 
attempts must be tied to assessment of their effectiveness. Not all 
scientists are capable of well nor effectively engaging this duty on 
behalf of STEM fields.
    Due to the lack relations between educators and scientific 
researchers, the creation of partnerships appears to be one of the best 
options for reaching President Obama's goal of moving U.S. student 
performance ``to the top of the pack'' in international assessments. 
Such partnerships must occur between:

  <bullet> Teachers and local and state-level education officials

  <bullet> State-level educational officials across state boundaries

  <bullet> Public entities with private/commercial entities

  <bullet> Local and state-level educational officials with national 
        educational officials

    The Federal Government needs better coordination across its various 
agencies for effective engagement to reach national goals and to 
cooperate with state-led initiatives in leveraging benefits from the 
Department of Education as well as the science mission agencies.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                          Dr. Ioannis Miaoulis

    Question 1. Attracting and retaining more women and minorities in 
STEM related career fields continues to be a challenge. According to a 
recent Department of Labor report, women are underpaid and 
underrepresented in STEM occupations as compared to men. The National 
Science Foundation reported that women earn only 21 percent of doctoral 
degrees in computer science. Moreover, many women who earn science, 
engineering, and math degrees are not hired in STEM fields.
    Research from the American Association of University Women suggests 
that this disparity threatens our ability to innovate and compete 
globally in these fields. I see this as both a pipeline issue for 
developing new talent, and also a hiring and retention issue. To date, 
what are the most promising efforts to attract and retain women and 
minorities in STEM fields?
    Answer. At the professional level there are a numerous professional 
societies for women and minorities in STEM fields that conduct outreach 
programs and provide continuing education, advocacy, and mentoring 
services. Some of these organizations also have collegial and high 
school chapters. These all are self-selecting efforts. We believe to 
broaden and diversify the STEM workforce pipeline, we must engage ALL 
students, in elementary and secondary schools, in real-world 
engineering design challenges that provide relevance and rigor in STEM 
content areas. Our curricular materials have a strong emphasis on 
diversity featuring male and female engineers from around the globe 
with varying abilities. With respect to retention, family friendly work 
policies are needed across the board to attract and retain talent.

    Question 2. What can be done to assure that there is sufficient 
support, mentoring, etc. so that our economy will benefit from their 
future contributions?
    Answer. Corporations should be encouraged to support employee 
membership in professional societies and continuing education for their 
employees. In schools, trained STEM resource teachers are needed to 
support the interdisciplinary approach necessary for effective STEM 
instruction--allowing math and science teachers to collaborate with 
technology and engineering educators to work on engineering design 
challenges--real world challenges that provide relevancy to students.

    Question 3. What efforts have been successful in attracting Native 
American students in Tribal schools to succeed in STEM fields?
    Answer. We do not have a lot of experience in these schools yet. 
The design challenges embedded in our engineering curricula were 
selected and designed to provide relevancy to students' lives and 
appeal to a diverse student population. One of our latest Engineering 
is Elementary units is entitled, ``Tehya's Pollution Solution,'' 
featuring a young Native American girl who discovers an oil spill and 
engineers a plan to clean it up. Another new unit features Despina, a 
child in a wheelchair, who loves to swim and learns to design an 
submersible ocean vessel to retrieve her lost goggles. Salila rescues a 
turtle from a polluted river, Leif harnesses the wind to do work, 
Lerato learns about insulation while designing a solar oven . . . all 
units can be previewed at www.mos.org/eie. When you use diverse role 
models and challenges that are relevant to their culture and community, 
then you can attract a diverse population.
    Our research shows that EiE students are performing better than the 
control groups in technology, engineering and science. We estimate that 
over 1.2 million children and 15,000 teachers have been exposed to this 
curriculum. Colorado Springs, in fact, is one of our field test sites. 
We would be happy to have Senator Udall visit such a classroom.

    Question 4. Do you have any specific recommendations for 
encouraging women and minorities to take advantage of STEM career 
opportunities with the Federal agencies that this Committee oversees?
    Answer. A greater financial commitment to federally-funded, higher 
education fellowships, internships, scholarships would undoubtedly 
attract more candidates to Federal service. Perhaps programs like Teach 
for America could be developed to Work for America.
    NASA recently issued a report you may be find helpful: ``Title IX 
for Science, Technology, & Engineering, & Mathematics.'' http://
odeo.hq.nasa.gov/documents/71900_HI-RES.8-4-09.pdf.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Warner to 
                          Dr. Ioannis Miaoulis

    Question 1. The President has pledged $3.7 billion for STEM 
education in the budget, including $1 billion for K-12 STEM education. 
That funding is spread across many agencies with different cultures and 
missions. How do you see the Department of Education, NSF and the 
mission agencies working together to develop a strategy, including 
basic elements as a common set of metrics for assessing and comparing 
programs?
    Answer. A system is needed that encourages collaboration and 
economies of size to create comprehensive education outreach programs 
that can be stretched to reach more expansive audiences. The STEM 
Coordination Act should help in developing this system. Each science 
agency should have a robust education budget that enables them to work 
effectively in both formal and informal education arenas. Each agency 
should make every effort to collaborate with existing formal education 
systems (teacher prep programs, curricula & assessment developers, 
professional development outlets, etc.) and informal science education 
institutions that have deep community connections and outreach systems 
in place.

    Question 2. Are there model programs or approaches to curriculum 
and instruction that have demonstrated how to increase student 
achievement and/or teacher performance? What are we investing in? How 
are these programs evaluated for effectiveness?
    Answer. Our Engineering is Elementary curricula series, funded by 
the National Science Foundation, aligns with popular science topics 
taught in elementary grades. We are partnering with other science 
centers, community colleges and universities to provide the requisite 
teacher professional development to teach the engineering design 
process. We have published several research papers detailing both 
teacher and student learning. Visit www.mos.org/eie.

    Question 3. Is the curriculum tailored to make sure we're teaching 
people about current challenges like clean energy problems or other 
national interests? If so, how are we measuring that this is actually 
happening?
    Answer. Our design challenges embedded in our engineering curricula 
were selected and designed to provide relevancy to students' lives and 
appeal to a diverse student population. One of our latest Engineering 
is Elementary units is entitled, ``Tehya' Pollution Solution,'' 
featuring a young Native American girl who discovers an oil spill and 
engineers a plan to clean it up. Another new unit features Despina, a 
child in a wheelchair, who loves to swim and learns to design an 
submersible ocean vessel to retrieve her lost goggles. Salila rescues a 
turtle from a polluted river, Leif harnesses the wind to do work, 
Lerato learns about insulation while designing a solar oven . . . all 
units can be previewed at www.mos.org/eie. Our research shows that EiE 
students are performing better than the control groups in technology, 
engineering and science. We estimate that over 1.2 million children and 
15,000 teachers have been exposed to this curriculum. Arlington Science 
Focus School was an early adopter of our curricula. We would be happy 
to have Senator Warner visit a classroom there.

    Question 4. What else do we need to do? What are the major barriers 
to improving the interest and performance of K-12 students and teachers 
in STEM?
    Answer. Students need exposure in schools to the human made world. 
They are digital natives that should know that technology is more than 
Xbox, iPods and cell phones. While these are intriguing technologies, 
they cannot solve all of our problems. A greater understanding of all 
things human-made will give students greater options and ideas about 
career paths.
    For teachers, understanding that engineering design is a 
pedagogical method, like the scientific inquiry process, that will 
engage students in research, planning, designing, prototyping, building 
and testing new technologies, providing relevance via real world 
problems. Professional development and tested instructional materials 
are necessary components for success.

    Question 5. How can partnerships between various stakeholders in 
the STEM education system facilitate the identification and 
implementation of successful models?
    Answer. In addition to research and development investments, a 
greater focus is necessary on broader impacts and public outreach. 
University researchers must partner with community organizations, such 
as science centers, to communicate their new discoveries to the public 
at large and especially teacher and students. Science museums regularly 
provide teacher professional development in a very accessible and 
affordable environment. Nationwide networks can be established to 
replicate best practices, transferring knowledge from larger to smaller 
facilities that may have fewer resources for research and development. 
A terrific example of this is the Nanoscale Informal Science Education 
Network www.NlSEnet.org.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
